      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




March 10, 2010

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Joseph E. Vengrin/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Missouri Medicaid Payments for the School District Administrative
              Claiming Program for Federal Fiscal Years 2004 Through 2006
              (A-07-08-03107)


Attached is an advance copy of our final report on the Missouri Medicaid School District
Administrative Claiming Program for Federal fiscal years (FY) 2004 through 2006. We will
issue this report to the Missouri Department of Social Services within 5 business days.

The Missouri HealthNet Division (State agency) of the Missouri Department of Social Services
administers Missouri’s Medicaid program. In February 1999, the State agency contracted with
Maximus, Inc. (Maximus), to manage the Missouri School District Administrative Claiming
(SDAC) program. Maximus distributed random moment time study (RMTS) forms and trained
school districts on how to complete them. Using the RMTS forms, Maximus determined for
each quarter the statewide percentages of time spent on allocable Medicaid administrative
activities and determined the Federal reimbursements related to the administrative activities
performed by individual school districts.

Our objectives were to determine whether the State agency correctly calculated and claimed only
allowable administrative costs for the St. Louis Public and Springfield school districts for the
SDAC program during FYs 2004 through 2006 and the impact of any RMTS errors identified at
the two audited school districts on the RMTS calculation for all other Missouri school districts.

Of the $15,322,753 (Federal share) the State agency claimed in administrative costs for the
St. Louis Public and Springfield school districts for FYs 2004 through 2006, $4,212,506 (Federal
share) was unallowable for Federal reimbursement because the State agency did not correctly
calculate and claim administrative costs for the SDAC program. An additional $1,491,120
(Federal share) in administrative costs claimed for these two school districts may not have been
allowable for Federal reimbursement. We accepted the remaining $9,619,127 (Federal share) as
allowable for Federal reimbursement. However, any potential errors in the RMTS process for
any other Missouri school district could affect the amount of allowable administrative costs in
Page 2 – Charlene Frizzera


the $9,619,127 (Federal share) claimed by the St. Louis Public and Springfield school districts.
In addition, because of errors identified during our review of the St. Louis and Springfield school
districts, the other Missouri school districts received $16,257,164 (Federal share) in unallowable
Medicaid payments for FYs 2004 through 2006.

Finally, for one quarter the State agency could not support its claim for school districts statewide
because neither it nor Maximus could accurately identify the RMTS forms used in the
administrative claim calculation. We are setting aside, for Centers for Medicare & Medicaid
Services (CMS) adjudication, $1,491,120 (Federal share) for administrative costs claimed for the
St. Louis Public and Springfield school districts and $3,858,196 (Federal share) for
administrative costs claimed for all other Missouri school districts.

These errors occurred because the State agency did not have adequate policies and procedures to
monitor the SDAC program and to ensure that all costs claimed met Federal requirements.

We recommend that the State agency:

      refund $20,469,670 ($4,212,506 for the St. Louis Public and Springfield school districts
       and $16,257,164 for the other Missouri school districts) to the Federal Government for
       unallowable SDAC expenditures;

      work with CMS to determine what portion of the $5,349,316 ($1,491,120 for the
       St. Louis Public and Springfield school districts and $3,858,196 for the other Missouri
       school districts) of school district administrative costs claimed for the quarter ending
       December 2004 was allowable;

      review all school district Medicaid administrative claims that the State agency paid after
       March 2006 to determine whether it included nonresponses in the sample and if so
       recalculate the administrative claims and refund to the Federal Government the amount
       overpaid; and

      strengthen policies and procedures to ensure SDAC expenditures submitted for Federal
       reimbursement are accurate and reasonable by:

       o reviewing RMTS forms, personnel costs, and other costs with the supporting
         documentation for a sample of school districts each quarter to ensure that the
         administrative costs are properly claimed and documentation complies with CMS
         guidance and

       o performing the trend analysis on every school district each quarter to identify
         potential problems with the claims that the school districts submit to the State agency.

In written comments on our draft report, the State agency agreed with our second and fourth
recommendations, disagreed with our third recommendation, and partially agreed with our first
recommendation. Nothing in the State agency’s comments has caused us to change our findings
and recommendations.
Page 3 – Charlene Frizzera


Please send us your final management decision, including any action plan, as appropriate, within 60
days. If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Patrick J.
Cogley, Regional Inspector General for Audit Services, at 816-426-3591 or through email at
Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-08-03107.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106


March 18, 2010

Report Number: A-07-08-03107

Mr. Ronald J. Levy
Director
Department of Social Services
Broadway State Office Building
P.O. Box 1527
Jefferson City, MO 65102

Dear Mr. Levy:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Missouri Medicaid Payments for the School
District Administrative Claiming Program for Federal Fiscal Years 2004 Through 2006. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-08-03107 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Ronald J. Levy


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  REVIEW OF MISSOURI MEDICAID
PAYMENTS FOR THE SCHOOL DISTRICT
ADMINISTRATIVE CLAIMING PROGRAM
    FOR FEDERAL FISCAL YEARS
       2004 THROUGH 2006




                         Daniel R. Levinson
                          Inspector General

                            March 2010
                           A-07-08-03107
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY
BACKGROUND

Medicaid Program and Health-related Services to Children

Congress amended section 1903(c) of the Social Security Act in 1988 to allow Medicaid
coverage of health-related services provided to children under the Individuals with Disabilities
Education Act. The school-based health program permits children to receive health-related
services, generally without having to leave school. States may be reimbursed for the
administrative activities that directly support identifying and enrolling potentially eligible
children in Medicaid. The Federal reimbursement is 50 percent of allowable administrative
expenses.

To ascertain the portion of time and activities that is related to the administration of the Medicaid
program, States must develop an allocation methodology that is approved by the U.S.
Department of Health & Human Services. Random moment sampling, which makes use of
random moment time studies (RMTS), is an approved allocation methodology and must reflect
all of the time and activities performed by employees participating in the Medicaid
administrative claiming program. For the RMTS, participants record their activities at a
designated point in time. These RMTS procedures were performed by all school districts to
determine, for each quarter, a statewide percentage of time spent on allowable Medicaid
reimbursable administrative activities.

Missouri Medicaid Program

The Missouri HealthNet Division (State agency) of the Department of Social Services
administers Missouri’s Medicaid program. In February 1999, the State agency contracted with
Maximus, Inc. (Maximus), to manage the Missouri School District Administrative Claiming
(SDAC) program.

Maximus distributed RMTS forms and trained school districts on how to complete them. Using
the RMTS forms, Maximus determined for each quarter the statewide percentages of time spent
on allocable Medicaid administrative activities and determined the Federal reimbursements
related to the administrative activities performed by individual school districts.

The State agency claimed $188,234,590 ($94,117,295 Federal share) for administrative costs
associated with school-based health services provided by 357 school districts for fiscal years
(FY) 2004 through 2006. Of this, the St. Louis Public school district claimed $28,819,380
($14,409,690 Federal share) and the Springfield school district claimed $1,826,126 ($913,063
Federal share); we focused on these two school districts. However, because the State agency
used an RMTS to develop statewide percentages, any errors associated with the RMTS allocation
methodology at those two school districts would affect all the Missouri school districts.




                                                  i
OBJECTIVES

Our objectives were to determine:

      whether the State agency correctly calculated and claimed only allowable administrative
       costs for the St. Louis Public and Springfield school districts for the SDAC program
       during FYs 2004 through 2006, and

      the impact of any RMTS errors identified at the two audited school districts on the RMTS
       calculation for all other Missouri school districts.

SUMMARY OF FINDINGS

Of the $15,322,753 (Federal share) the State agency claimed in administrative costs for the
St. Louis Public and Springfield school districts for FYs 2004 through 2006, $4,212,506 (Federal
share) was unallowable for Federal reimbursement because the State agency did not correctly
calculate and claim administrative costs for the SDAC program. An additional $1,491,120
(Federal share) in administrative costs claimed for these two school districts may not have been
allowable for Federal reimbursement. We accepted the remaining $9,619,127 (Federal share) as
allowable for Federal reimbursement. However, any potential errors in the RMTS process for
any other Missouri school district could affect the amount of allowable administrative costs in
the $9,619,127 (Federal share) claimed by the St. Louis Public and Springfield school districts.

In addition, because of errors identified during our review of the St. Louis Public and Springfield
school districts, the other Missouri school districts received $16,257,164 (Federal share) in
unallowable Medicaid payments for FYs 2004 through 2006. Specifically:

      Errors in the RMTS of the two audited school districts affected the calculation of the
       statewide RMTS percentages. As a result, an additional $1,283,719 (Federal share)
       claimed on behalf of the other Missouri school districts was unallowable.

      The State agency did not include RMTS nonresponses in the sample, which rendered the
       results unreliable. Excluding nonresponses caused the other Missouri school districts to
       receive $14,700,418 (Federal share) in unallowable payments.

      The State agency did not accurately account for all returned RMTS forms in the
       calculation of the SDAC expenditures. These errors affected the calculation of claims
       statewide and made unallowable an additional $273,027 (Federal share) claimed on
       behalf of the other Missouri school districts.

Finally, for one quarter the State agency could not support its claim for school districts statewide
because neither it nor Maximus could accurately identify the RMTS forms used in the
administrative claim calculation. We are setting aside, for the Centers for Medicare & Medicaid
Services (CMS) adjudication, $1,491,120 (Federal share) for administrative costs claimed for the
St. Louis Public and Springfield school districts and $3,858,196 (Federal share) for
administrative costs claimed for all other Missouri school districts.


                                                 ii
These errors occurred because the State agency did not have adequate policies and procedures to
monitor the SDAC program and to ensure that all costs claimed met Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

       refund $20,469,670 ($4,212,506 for the St. Louis Public and Springfield school districts
        and $16,257,164 for the other Missouri school districts) to the Federal Government for
        unallowable SDAC expenditures;

       work with CMS to determine what portion of the $5,349,316 ($1,491,120 for the
        St. Louis Public and Springfield school districts and $3,858,196 for the other Missouri
        school districts) of school district administrative costs claimed for the quarter ending
        December 2004 was allowable;

       review all school district Medicaid administrative claims that the State agency paid after
        March 2006 to determine whether it included nonresponses in the sample and if so
        recalculate the administrative claims and refund to the Federal Government the amount
        overpaid; and

       strengthen policies and procedures to ensure SDAC expenditures submitted for Federal
        reimbursement are accurate and reasonable by:

           o reviewing RMTS forms, personnel costs, and other costs with the supporting
             documentation for a sample of school districts each quarter to ensure that the
             administrative costs are properly claimed and documentation complies with CMS
             guidance and

           o performing the trend analysis on every school district each quarter to identify
             potential problems with the claims that the school districts submit to the State
             agency.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our second and fourth
recommendations, disagreed with our third recommendation, and partially agreed with our first
recommendation. The State agency said that “the RM[T]S calculation methodology is contained
in the School District Administrative Claiming manual ..., approved by CMS as stated in the
February 27, 2004 letter ....” The State agency’s comments are presented in Appendix B. We
excluded one attachment because of its volume. We will forward all of the attachments in their
entirety to CMS.

Nothing in the State agency’s comments has caused us to change our findings and
recommendations.


                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION.......................................................................................................................1

       BACKGROUND .................................................................................................................1
         Medicaid Program and Health-related Services to Children ..........................................1
         Missouri Medicaid Program ...........................................................................................2

       OBJECTIVES, SCOPE AND METHODOLOGY..............................................................3
         Objectives .......................................................................................................................3
         Scope ............................................................................................................................3
         Methodology ...................................................................................................................4

FINDINGS AND RECOMMENDATIONS .............................................................................5

       INACCURATE INVOICES FOR AUDITED SCHOOL DISTRICTS ..............................6
         Claimed Costs That Should Have Been Offset by Other Federal Revenue Sources
           But Were Not ..............................................................................................................7
         Inaccurate Personnel Costs .............................................................................................8
         Improper Indirect Cost Rate............................................................................................8
         Inaccurate Other Costs....................................................................................................8
         Nonresponses Excluded From Sample .........................................................................10
         Inaccurate Random Moment Time Study Forms..........................................................11
         Inaccurate Response Count...........................................................................................12

       IDENTIFIED INACCURACIES AT AUDITED SCHOOL DISTRICTS AFFECTED
         CLAIMS STATEWIDE ...............................................................................................13
          Random Moment Time Study Errors Affected Claims Statewide...............................13
          Inaccurate Response Count Affected Claims Statewide..............................................13
          Nonresponses Not Included in Sample on Claims Statewide......................................13

       POTENTIALLY UNALLOWABLE COSTS CLAIMED................................................13

       MEDICAID ADMINISTRATIVE CLAIMING NOT ADEQUATELY
         MONITORED...............................................................................................................14

       EFFECT OF UNALLOWABLE CLAIMS PAID.............................................................14

       RECOMMENDATIONS...................................................................................................15

       STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
         RESPONSE..................................................................................................................16
          Claimed Costs That Should Have Been Offset By Other Federal
             Revenue Sources But Were Not ............................................................................16



                                                                     iv
      Nonresponses Excluded From Sample .......................................................................16
      Inaccurate Random Moment Time Study Forms........................................................18
      Inaccurate Response Count.........................................................................................18
      Review of School District Administrative Claims Regarding Inclusion of
         Nonresponses in the Sample .................................................................................19

APPENDIXES

   A – REVISED SAMPLE SIZE THAT INCLUDES NONRESPONSES

   B – STATE AGENCY COMMENTS




                                                         v
                                        INTRODUCTION

BACKGROUND

Medicaid Program and Health-related Services to Children

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Congress amended section 1903(c) of the Act in 1988 to allow Medicaid coverage of health-
related services provided to children under the Individuals with Disabilities Education Act. The
school-based health program permits children to receive health-related services, generally
without having to leave school. The Act provides for States to be reimbursed for the
administrative activities that directly support identifying and enrolling potentially eligible
children in Medicaid. Administrative functions include outreach, eligibility intake, information
and referral, health service coordination and monitoring, and interagency coordination. The
Federal reimbursement is 50 percent of allowable administrative expenses.

To ascertain the portion of time and activities that is related to the administration of the Medicaid
program, States must develop an allocation methodology that is approved by the U.S.
Department of Health & Human Services, Division of Cost Allocation. Random moment
sampling, which makes use of random moment time studies (RMTS), is an approved allocation
methodology and must reflect all of the time and activities (whether allocable or allowable under
Medicaid) performed by employees participating in the Medicaid administrative claiming
program. For the RMTS, participants record their activities at a designated point in time. In
Missouri, it was used to identify, measure, and allocate the school staff’s time that was devoted
to Medicaid reimbursable administrative activities. These RMTS procedures were performed by
all school districts to determine, for each quarter, a statewide percentage of time spent on
allowable Medicaid reimbursable activities.

According to the Office of Management and Budget (OMB) Circular A-87, Cost Principles for
State, Local, and Indian Tribal Governments, random moment sampling is a federally accepted
method for tracking employees working in dynamic situations (that is, performing many
different types of activities on a variety of programs over a short period of time). The CMS
Medicaid School-Based Administrative Guide (CMS guide), dated October 2003, acknowledges
that OMB Circular A-87 lists random moment sampling as one acceptable method for allocating
salaries to Federal awards when employees work on multiple activities or cost objectives.




                                                 1
Missouri Medicaid Program

The Missouri HealthNet Division (formerly Division of Medical Services) (State agency) of the
Department of Social Services administers Missouri’s Medicaid program. In February 1999, the
State agency entered into a contingency fee contract with Maximus, Inc. (Maximus), to manage
the Missouri School District Administrative Claiming (SDAC) program. The purpose of the
contingency fee contract was for Maximus to maximize Federal reimbursement to the State
agency on behalf of the SDAC program by analyzing the services and billing mechanisms. The
contingency fee contract stated that Maximus was to receive a fixed percentage of Federal
dollars ranging from 5.75 to 7 percent depending on the fiscal year (FY). Accordingly, school
districts paid Maximus a combined total of $8,257,086 during Federal FYs 2004 through 2006.
(These fees were not claimed for Federal reimbursement.)

Maximus distributed RMTS forms and trained school districts on how to complete them. On a
quarterly basis, the school districts submitted to Maximus a list of all school district employees
participating in the SDAC program (SDAC participants). Maximus consolidated these personnel
listings and statistically selected SDAC participants from a statewide pool to include in the
RMTS. Maximus then provided the school districts with RMTS forms for those selected SDAC
participants, as well as information on the statistically selected date and time (the random
moment). Each of the selected SDAC participants then completed the RMTS form by
(a) selecting the RMTS activity code that best described the activity he or she was performing at
the selected random moment and (b) providing a written description of the activity.

The CMS guide, section V(B), directed the State agency to include each RMTS form sent to
participants in the sample and to classify as a non-Medicaid activity each RMTS form not
completed and returned (nonresponse).

Using the RMTS forms, Maximus determined the statewide percentages of time spent on
allocable Medicaid administrative activities. 1 For each quarter, Maximus applied the applicable
statewide percentage to salaries, fringe benefits, and other costs associated with the provision of
school-based health services to determine the Federal reimbursements related to the
administrative activities performed by individual school districts.

The State agency claimed $188,234,590 ($94,117,295 Federal share) for administrative costs
associated with school-based health services provided by 357 school districts for FYs 2004
through 2006. Of this, the St. Louis Public school district claimed $28,819,380 ($14,409,690
Federal share) and the Springfield school district claimed $1,826,126 ($913,063 Federal share);
we focused on these two school districts. However, because the State agency used an RMTS to
develop, on a statewide basis, the percentages of effort that employees spent on various Medicaid
administrative activities, any errors associated with the RMTS allocation methodology at the two
school districts would affect all of the other Missouri school districts.



1
 Maximus’s calculations yielded a number of percentages because each Medicaid administrative activity had its
own percentage. While these percentages varied from one quarter to the next, the percentage for a particular
Medicaid administrative activity in a particular quarter did not change from one school district to the next.


                                                       2
OBJECTIVES, SCOPE AND METHODOLOGY

Objectives

Our objectives were to determine:

        whether the State agency correctly calculated and claimed only allowable administrative
         costs for the St. Louis Public and Springfield school districts for the SDAC program
         during FYs 2004 through 2006 and

        the impact of any RMTS errors identified at the two audited school districts on the RMTS
         calculation for all other Missouri school districts.

Scope

During our audit period, the State agency claimed $188,234,590 ($94,117,295 Federal share) for
administrative costs associated with school-based health services provided by 357 school
districts in Missouri. We performed an indepth review of the school district administrative
claims filed on behalf of the St. Louis Public and Springfield school districts. We selected these
two school districts based on the amounts they claimed for administrative activities during
FYs 2004 through 2006. The State agency claimed $30,645,506 ($15,322,753 Federal share) for
administrative costs associated with these two school districts, out of the $188,234,590
($94,117,295 Federal share) that the State agency claimed for administrative costs associated
with school-based health services provided by all 357 Missouri school districts for FYs 2004
through 2006.

We did not perform a detailed review of the State agency’s internal controls because our
objectives did not require us to do so. We limited our internal control review to obtaining an
understanding of the State agency’s policies and procedures used to claim SDAC expenditures.

Because the State agency used statewide RMTS percentages to calculate administrative costs for
other Missouri school districts, RMTS errors at the 2 audited school districts affected the
remaining 355 school districts. Therefore, although we did not review the other school districts
in Missouri, we applied the revised RMTS percentages to the costs for all school districts
statewide. 2

In general, we do not express an opinion on the total and Federal share amounts claimed on the
standard form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, for the other 355 Missouri school districts for the purpose of performing
calculations in this audit. We are not expressing an opinion on those costs except for the effect
of the revised RMTS percentages on their administrative costs and for the quarter ending
December 2004.

2
 Maximus calculated the percentages of time that school districts’ staff spent on allowable administrative activities
by analyzing the statewide RMTS forms. Maximus used the percentages of time spent on allowable administrative
activities to calculate each school district’s SDAC quarterly claim. An error in the RMTS for one or more school
districts would thus affect all school districts within the State.


                                                          3
We conducted fieldwork at the State agency in Jefferson City, Missouri, and the two school
districts.

Methodology

To accomplish our objectives, we:

      reviewed applicable Federal and State requirements;

      reviewed the State agency’s policies and procedures concerning administrative activities,
       which included the State agency’s monitoring and oversight procedures;

      interviewed State agency employees to understand how they administered the Medicaid
       program statewide;

      reconciled the State agency’s quarterly CMS-64 report to the SDAC invoices submitted
       by Maximus on behalf of all Missouri school districts and to the State agency’s
       accounting records;

      reconciled the SDAC invoices for the St. Louis Public and Springfield school districts
       accounting records;

      interviewed Maximus employees to understand how they administered the SDAC
       program and how the statewide RMTS percentages were calculated;

      reviewed St. Louis Public and Springfield school districts’ SDAC invoices reimbursed
       during FYs 2004 through 2006;

      compared St. Louis Public and Springfield school districts’ SDAC program personnel
       costs to payroll records to identify any personnel costs that were paid by other Federal
       programs;

      compared costs in the Other Costs category and the indirect cost rate reported on the
       SDAC invoices to supporting documentation;

      analyzed the sample results listing of RMTS responses to ensure that the State agency
       accounted for all of the returned RMTS forms when calculating the SDAC expenditures
       to be claimed;

      compared the sample results listing of RMTS responses included in the sample to
       determine whether the State agency included nonresponses in the sample pursuant to the
       CMS guide, section V(B);

      reviewed 1,679 RMTS forms completed by employees of the two school districts to
       determine whether activities performed were Medicaid administrative activities;



                                                4
    •   recalculated the St. Louis Public and Springfield school districts’ administrative claims
        using the audited expenditures and the audited statewide RMTS percentages to determine
        the amounts that should have been claimed;

    •   recalculated other Missouri school districts’ administrative claims using the audited
        statewide RMTS percentages;

    •   compared the RMTS control listings 3 to RMTS forms to determine which of these forms
        Maximus used in calculating the RMTS percentages;

    •   used the State agency’s formulas for calculating administrative costs and determined the
        effect by comparing the original claiming invoices to the total of audited RMTS samples
        and costs; and

    •   shared the results of this review with CMS and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                             FINDINGS AND RECOMMENDATIONS

Of the $15,322,753 (Federal share) the State agency claimed in administrative costs for the
St. Louis Public and Springfield school districts for FYs 2004 through 2006, $4,212,506 (Federal
share) was unallowable for Federal reimbursement because the State agency did not correctly
calculate and claim administrative costs for the SDAC program. An additional $1,491,120
(Federal share) in administrative costs claimed for these two school districts may not have been
allowable for Federal reimbursement. We accepted the remaining $9,619,127 (Federal share) as
allowable for Federal reimbursement. However, any potential errors in the RMTS process for
any other Missouri school district could affect the amount of allowable administrative costs in
the $9,619,127 (Federal share) claimed by the St. Louis Public and Springfield school districts.

In addition, because of errors identified during our review of the St. Louis Public and Springfield
school districts, the other Missouri school districts received $16,257,164 (Federal share) in
unallowable Medicaid payments for FYs 2004 through 2006. Specifically:

    •   Errors in the RMTS of the two audited school districts affected the calculation of the
        statewide RMTS percentages. As a result, an additional $1,283,719 (Federal share)
        claimed on behalf of the other Missouri school districts was unallowable.




3
 The RMTS control listing is Maximus’s statistical sample of SDAC participants, along with the random moments
selected, for each quarter.


                                                      5
      The State agency did not include RMTS nonresponses in the sample, which rendered the
       results unreliable. Excluding nonresponses caused the other Missouri school districts to
       receive $14,700,418 (Federal share) in unallowable payments.

      The State agency did not accurately account for all returned RMTS forms in the
       calculation of the SDAC expenditures. These errors affected the calculation of claims
       statewide and made unallowable an additional $273,027 (Federal share) claimed on
       behalf of the other Missouri school districts.

Finally, for one quarter the State agency could not support its claim for school districts statewide
because neither it nor Maximus could accurately identify the RMTS forms used in the
administrative claim calculation. We are setting aside, for CMS adjudication, $1,491,120
(Federal share) for administrative costs claimed for the St. Louis Public and Springfield school
districts and $3,858,196 (Federal share) for administrative costs claimed for all other Missouri
school districts.

These errors occurred because the State agency did not have adequate policies and procedures to
monitor the SDAC program and to ensure that all costs claimed met Federal requirements.

INACCURATE INVOICES FOR AUDITED SCHOOL DISTRICTS

Of the $15,322,753 (Federal share) in administrative costs claimed for the St. Louis Public and
Springfield school districts for FYs 2004 through 2006, $4,212,506 was unallowable for Federal
reimbursement because the State agency did not correctly calculate and claim administrative
costs for the SDAC program. Specifically, for the St. Louis Public and Springfield school
districts, the State agency: (1) claimed personnel costs that were partially funded by other
Federal programs; (2) claimed inaccurate personnel costs; (3) used an incorrect indirect cost rate;
(4) claimed incorrect Other Costs; (5) improperly excluded nonresponses from the sample, which
rendered the results unreliable; (6) claimed costs based on inaccurately completed RMTS forms;
and (7) did not include all returned RMTS forms in the sample when calculating SDAC
expenditures to be claimed. (See Table.)




                                                 6
         Table: St. Louis Public and Springfield School District’s Questioned Costs

                                                        St. Louis
                                                         Public       Springfield       Total
                                                       Questioned     Questioned      Questioned
                    Condition                            Costs          Costs           Costs
Claimed costs that should have been offset by
other Federal revenue sources but were not                $370,771         $86,558        $457,329
Inaccurate personnel costs                                       0           1,730           1,730
Improper indirect cost rate                                139,390               0         139,390
Inaccurate Other Costs:
     Year-to-date expenditures                                   0           1,534           1,534
     Unsupported expenditures                               22,799           8,697          31,496
Nonresponses excluded from sample                        2,794,324         160,353       2,954,677
Inaccurate RMTS forms                                      367,191          17,314         384,505
Inaccurate response count                                  231,180          10,665         241,845
  Total                                                 $3,925,655        $286,851      $4,212,506

Claimed Costs That Should Have Been Offset by Other Federal Revenue Sources
But Were Not

OMB Circular A-87, Attachment A, part (C)(1)(j), states that costs must “[b]e adequately
documented.” OMB Circular A-87, Attachment A, part (C)(3)(c), states in part that “[a]ny cost
allocable to a particular Federal award or cost objective under the principles provided for in this
Circular may not be charged to other Federal awards to overcome fund deficiencies, to avoid
restrictions imposed by law or terms of the Federal awards, or for other reasons.”

According to the CMS guide, section V(C), “[c]ertain revenues must offset allocation costs in
order to reduce the total amount of costs in which the federal government will participate .... The
following include some of the revenue offset categories which must be applied in developing the
net costs: All federal funds. All state expenditures which have been previously matched by the
federal government ....”

These Federal requirements specify that school districts are not to include in their claims any
expenditure that may have been reimbursed through another Federal program. For example, the
school districts should not claim the same expenditures for reimbursement through both the
SDAC and the Reserve Officers’ Training Corps (ROTC) programs. Instead, the school districts
should allocate the expenditures appropriately between the programs.

Through our review of the payroll records, we determined which SDAC participants’ salaries
were partially paid through one or more other Federal programs. The two audited school
districts, St. Louis Public and Springfield, received unallowable Federal reimbursement totaling
$457,329 in personnel costs for employees whose salaries were partially funded by another
Federal program, such as the ROTC program (funded by the Department of Defense). The
two school districts should have allocated these personnel costs appropriately between the
various Federal programs that were funding those costs. Instead, though, and contrary to


                                                 7
OMB Circular A-87, Attachment A, part (C)(3)(c) and the CMS guide, section V(C), the two
school districts did not offset these claimed costs on the basis of the other Federal revenue
sources that had contributed to the funding of those salaries.

Inaccurate Personnel Costs

Contrary to OMB Circular A-87, Attachment A, part (C)(1)(j), which states that costs must “[b]e
adequately documented,” Maximus included on the Springfield school district’s invoice
personnel costs that were not supported by documentation. For the quarter ending September
2004, Maximus reported $30,000 more to the State agency in personnel costs than the
Springfield school district reported to Maximus. Because of this error, the Springfield school
district received $1,730 in unallowable Federal reimbursement.

Improper Indirect Cost Rate

According to the CMS guide, section V(D), “[c]laims for the school district’s indirect costs are
only allowable when the entity has an approved indirect cost rate issued by the cognizant agency
and costs are claimed in accordance with the rate.”

The St. Louis Public school district received unallowable Federal reimbursement totaling
$139,390 because Maximus used an incorrect indirect cost rate—which had not been approved—
to calculate that district’s claim for the quarters ending June 2003 and September 2003. The
Missouri Department of Elementary and Secondary Education (DESE) is the cognizant agency
that provides the approved indirect cost rate for each school district to the State agency. Each
school district is to use that rate in claiming its indirect costs. Maximus used an indirect cost rate
of 31.52 percent for the St. Louis Public school district. However, the DESE-approved indirect
cost rate for St. Louis Public school district was 24.67 percent. Because Maximus used the
incorrect indirect cost rate, the St. Louis Public school district claimed costs that did not conform
to the approved rate and therefore received $139,390 in unallowable Federal reimbursement.

Inaccurate Other Costs

OMB Circular A-87, Attachment A, part (C)(1), states that “[t]o be allowable under Federal
awards, costs must meet the following general criteria: (a) Be necessary and reasonable for
proper and efficient performance and administration of Federal awards .... (e) Be consistent with
policies, regulations, and procedures that apply uniformly to both Federal awards and other
activities of the governmental unit .... (j) Be adequately documented.”

Maximus did not properly calculate the Other Costs claimed on the SDAC invoices. First, the
Springfield school district provided inaccurate year-to-date numbers, which Maximus used when
calculating the Other Costs. Second, neither the two audited school districts nor Maximus could
support all of the expenditures (for Other Costs) reported to Maximus. The combined effect of
these errors, detailed in the following paragraphs, was that the two audited school districts
received a total of $33,030 in unallowable Federal reimbursement for Other Costs.




                                                  8
Inaccurate Use of Year-to-Date Expenditures

Contrary to OMB Circular A-87, Attachment A, part (C)(1)(j), which states that costs must “[b]e
adequately documented,” the Springfield school district did not adequately document all of the
Other Costs it claimed for Federal reimbursement when submitting expenditures to Maximus.
Specifically, the Springfield school district provided year-to-date expenditures instead of
quarterly data for the quarters ending December 2005 and March 2006, thus overstating quarterly
costs. The school district discovered the error and submitted revised (quarterly) data to
Maximus. However, Maximus used the original year-to-date data to calculate the Other Costs
for the Springfield school district, which caused the Springfield school district to receive $1,534
in unallowable Federal reimbursement.

Unsupported Expenditures

Contrary to OMB Circular A-87, Attachment A, part (C)(1)(j), which states that costs must “[b]e
adequately documented,” the two school districts reviewed did not adequately document, and
thus could not fully support, some of the expenditures claimed for Other Costs. Specifically, for
two quarters the St. Louis Public school district reported inaccurate personnel costs, which
resulted in unallowable Federal reimbursement totaling $22,799. Additionally, for seven
quarters the Springfield school district could not support some of the expenditures for Other
Costs reported to Maximus, which resulted in unallowable Federal reimbursement totaling
$8,697.

The St. Louis Public school district identified an error in the amount of SDAC participants’
personnel expenditures reported to Maximus for the quarter ending September 2005, and it
submitted revised SDAC participant personnel expenditures. The SDAC invoice subsequently
submitted through Maximus to the State agency and forwarded for Federal reimbursement was
based on the original expenditures, not on the corrected amounts. Later, Maximus submitted a
revised claim correcting the salaries and benefits portion of the claim but not correcting the
amount claimed for Other Costs. Because Maximus did not revise the Other Costs calculation
for the quarter ending September 2005, the St. Louis Public school district received $22,179 in
unallowable Federal reimbursement.

We noted another error in Maximus’s calculations of the Other Costs for the St. Louis Public
school district. Maximus included additional SDAC salary costs that the school district did not
report. Maximus calculated the Other Costs by developing a ratio of the salaries and benefits for
the SDAC participants to the salaries and benefits of all employees in the school district.
However, the salaries for all SDAC participants did not match what was claimed on the SDAC
invoice. The Other Costs claimed were based on SDAC participants’ salary costs that the school
district had not reported for the quarter ending December 2004, and therefore these Other Costs
could not be supported. As a result, the school district received $620 in unallowable Federal
reimbursement.

In addition, the Springfield school district could not provide documentation to support the
expenditures used in the Other Cost calculations for seven quarters of our review period. The
supporting documentation obtained did not support 100 percent of the expenditures originally



                                                9
submitted to Maximus. Because the Springfield school district could not support the Other
Costs, it received $8,697 in unallowable Federal reimbursement.

Nonresponses Excluded From Sample

OMB Circular A-87, Attachment B, section 8(h)(6), states: “Substitute systems for allocating
salaries and wages to Federal awards may be used in place of activity reports.” This document
adds that substitute systems include random moment sampling. In addition, OMB Circular A-87,
Attachment B, section 8(h)(6)(a), states: “Substitute systems which use sampling methods
(primarily for Temporary Assistance to Needy Families (TANF), Medicaid, and other public
assistance programs) must meet acceptable statistical sampling standards ….” Further, OMB
Circular A-87, Attachment B, section 8(h)(6)(a)(iii), states: “The results must be statistically
valid ....”

The CMS guide, section V(A)(2), states that “... the validity and reliability of the sampling
methodology must be acceptable to CMS. That is, the state must include details of how its time
study methodology will be validated.”

In addition, section V(B) of the CMS guide states, “... all nonresponses [RMTS forms that were
not completed and returned to Maximus] should be coded to non-Medicaid time study codes.”
The CMS guide also states: “... many schools oversample and/or factor in a non-response rate in
their time study methodology.” 4 CMS central office and regional officials informed us that the
CMS guide means that State Medicaid agencies can use oversampling to factor nonresponses
into their methodology but only with prior approval from CMS for the use of the alternate
methodology. That is, any alternate methodology used to compensate for nonresponses must be
submitted to CMS for review and approval before implementation and must also be statistically
valid and reliable.

The State agency did not fully adhere to the provisions of the CMS guide regarding nonresponse
RMTS forms. The State agency applied an alternate methodology in which it opted to
oversample to ensure a minimum number of responses but did not consider the nonresponses in
the results. 5 The State agency applied two different methodologies during the period we
reviewed. Neither methodology was described in the procedure that was CMS-approved.
Pursuant to the CMS guide, all nonresponses should have been coded to non-Medicaid timestudy
codes.

Out of 32,852 RMTS forms sent to SDAC participants statewide, the State agency did not
include 8,059 nonresponses in the RMTS samples for the nine quarters reviewed. (See
Appendix A.) Instead, the State agency applied an alternate methodology that omitted the



4
  Oversampling, in this context, refers to the process whereby the State agency sends out more RMTS forms than are
required to compensate for known or expected nonresponses.
5
  We interviewed CMS officials about the use of oversampling and the interpretation of the CMS guide. According
to CMS central office staff, oversampled results may only be substituted for nonresponses if there is a CMS
approved alternate methodology.


                                                       10
8,059 nonresponse RMTS forms. The average nonresponse rate for the nine quarters reviewed
was 24 percent, with a high of 34 percent in one quarter.

Because the State agency used an unapproved alternate methodology that discarded the RMTS
nonresponses and because those nonresponses constituted such a high proportion of the RMTS
forms sent to SDAC participants statewide, we concluded that the estimates from the RMTS
were not reliable. CMS central office and regional officials agreed with our determination.

After identifying the improperly excluded nonresponses, we used the State agency’s
methodology but also accounted for 100 percent of the samples pursuant to the CMS guide. We
used the State agency’s formulas for calculating administrative costs and determined the effect
by comparing the original claiming invoices to the total of audited RMTS samples. We
determined that because of their improper exclusion of nonresponses, the two audited school
districts received $2,954,677 ($2,794,324 for the St. Louis Public school district and $160,353
for the Springfield school district) in unallowable Federal reimbursement.

Inaccurate Random Moment Time Study Forms

OMB Circular A-87, Attachment A, part (C)(1)(j), states that costs must “[b]e adequately
documented.”

Additionally, the CMS guide, section V(A), states:

        The documentation for administrative activities must clearly demonstrate that the
        activities/services directly support the administration of the Medicaid program ....
        The burden of proof and validation of time study sample results remains the
        responsibility of the states. To meet this requirement, some states currently
        include space on time study forms for a brief narrative description of the
        Medicaid activity, function, or task being performed.

The Medicaid School District Administrative Claiming—Procedures for Missouri Schools guide
mandates that “ ... to establish the validity of the Missouri Random Moment observation form
[RMTS] ...” school districts will implement a process whereby the RMTS form “... also contains
a description line upon which sampled staff provide a brief, written description of what they are
doing. The written description, assumed to be more accurate than the ‘check box’, is compared
to the activity box that was checked to confirm that the two data elements are consistent with one
another.” 6

With respect to timely completion of the RMTS forms, the Missouri Medicaid School District
Administrative Claiming—District SDAC Coordinator’s Guidelines states “... that the signature
date is the same as the observation date shown on the form or closely thereafter. Forms dated
prior to the assigned date will be considered invalid.” We considered any RMTS form signed
and dated 7 or more days after the assigned date or before the assigned date to be invalid.

6
 If, in our review of the RMTS forms, we found that the check box indicated a non-Medicaid activity but the
corresponding written description supported a Medicaid-allowable activity, we changed the classification from a
non-Medicaid activity to a Medicaid-allowable activity.


                                                        11
The State agency did not monitor the RMTS to ensure the RMTS forms (a) were properly
completed and (b) supported the activities performed. The two school districts we reviewed
completed 293 out of 1,679 RMTS forms (17.5 percent) inaccurately, but Maximus included
these inaccurately completed RMTS forms when it calculated the RMTS percentages. The three
types of errors are described below:

   1. Of the 293 inaccurate RMTS forms, 235 forms (80 percent) had an activity code and a
      written description that did not match. For example, an SDAC participant selected the
      activity code “General Administration” but provided a written description that said,
      “Interacting with third graders as they moved through the lunch line.” According to the
      CMS guide, section IV(C), “Providing general supervision of students (e.g. playground,
      lunchroom)” is classified as “School-Related and Educational Activities.” This category
      may not be reimbursed through the SDAC program, unlike “General Administration”
      activities, which are reallocated proportionately to all activity codes.

   2. Of the 293 inaccurate RMTS forms, 24 forms (8 percent) either had no written
      description of the activity or the description was so vague that it did not support the
      activity. For example, one written description stated, “Resource Teacher: Duties include
      working with students with various disabilities that are part of the General Education
      Curriculum.” The SDAC participant coded this activity as “Referral, Coordination, and
      Monitoring of Medicaid Services.” The written description vaguely described
      occupational duties rather than specific activities during the selected random moment.

   3. Of the 293 inaccurate RMTS forms, 34 forms (12 percent) were either not dated or were
      dated before or significantly after (i.e., after the 7-day cutoff we established for timely
      completion) the selected random moment. For example, one RMTS form was completed
      63 days after the selected random moment. The point of an RMTS is that selected SDAC
      participants promptly and accurately record their precise activities during the specific
      statistically selected moment. It is unlikely that a participant could remember what task
      he or she performed during a specific moment after 2 months.

We reclassified the 293 RMTS coding errors and recalculated the SDAC invoices for the
St. Louis Public and Springfield school districts accordingly. (See footnote 1.) Because of the
RMTS coding errors, the two school districts received $384,505 ($367,191 for the St. Louis
Public school district and $17,314 for the Springfield school district) in unallowable Federal
reimbursement.

Inaccurate Response Count

Contrary to OMB Circular A-87, Attachment A, part (C)(1)(j), which states that costs must “[b]e
adequately documented,” the State agency did not account for all completed and returned RMTS
forms in the calculation of the SDAC expenditures.

The State agency calculated the St. Louis Public and Springfield school districts’ SDAC invoices
for the quarter ending June 2004 using incorrect and unsupported RMTS forms. In particular,
the State agency used a total RMTS count of 2,080. However, documentation supported that



                                               12
2,734 RMTS forms were completed and returned. Therefore, the State agency did not account
for 654 of the completed and returned RMTS forms when calculating and claiming the
administrative costs for the St. Louis and Springfield school districts.

As a result of these errors, the two school districts received a total of $241,845 ($231,180 for the
St. Louis Public school district and $10,665 for the Springfield school district) in unallowable
Federal reimbursement.

IDENTIFIED INACCURACIES AT AUDITED SCHOOL DISTRICTS AFFECTED
CLAIMS STATEWIDE

Random Moment Time Study Errors Affected Claims Statewide

Because the statewide RMTS was calculated using responses from all Missouri school districts,
RMTS errors associated with the two audited school districts affected the amounts claimed on
the SDAC invoices for each of the other Missouri school districts. Therefore, we used the
audited RMTS response count from the St. Louis Public and Springfield school districts (for
which we reclassified the 293 RMTS coding errors) to recalculate the statewide RMTS
percentages for the other Missouri school districts. In turn, the recalculated percentages affected
the SDAC invoices statewide. After recalculating the SDAC invoices, we determined that the
other Missouri school districts received $1,283,719 in unallowable Federal reimbursement.

Inaccurate Response Count Affected Claims Statewide

For one quarter, the State agency calculated the SDAC invoices using incorrect and unsupported
RMTS forms. Specifically, the State agency used the RMTS count in calculating each school
district’s administrative claim. The State agency then used the RMTS count to determine the
RMTS percentages. For the quarter ending June 2004, the State agency did not account for
100 percent of the completed and returned RMTS forms. Out of 2,734 completed and returned
RMTS forms, the State agency incorrectly included only 2,080 completed and returned RMTS
forms in its calculation of the administrative claims. After recalculating the SDAC invoices on
the basis of the 2,734 completed and returned RMTS forms reflected in the supporting
documentation, we determined that the other Missouri school districts received $273,027 in
unallowable Federal reimbursement.

Nonresponses Not Included in Sample on Claims Statewide

The State agency did not fully adhere to the CMS guide regarding nonresponse RMTS forms.
Because the State agency did not properly include 8,059 nonresponses when determining the
RMTS percentages, the remaining 355 Missouri school districts received $14,700,418 in
unallowable Federal reimbursement.

POTENTIALLY UNALLOWABLE COSTS CLAIMED

The State agency could not support one quarter of the RMTS results used in calculating the
administrative claim for each of the two school districts reviewed. Maximus provided statewide



                                                 13
control listings, which specified the RMTS forms it used to calculate, for each quarter, the
statewide percentage of time that SDAC participants spent on allocable Medicaid administrative
activities. For the quarter ending December 2004, the control number used to identify each
RMTS form for the St. Louis Public and Springfield school districts did not match the control
number shown on the statewide control listing provided by Maximus. 7 In other words, the list of
SDAC participants selected to be sampled at random moments was different from the list of
SDAC participants who were actually sampled and gave responses. Consequently, we could not
determine, for the quarter ending December 2004, which RMTS form results Maximus used to
calculate the statewide percentage of time that SDAC participants spent on allowable Medicaid
administrative activities. Neither the State agency nor Maximus was able to accurately identify
the RMTS forms that Maximus had actually used to claim administrative expenses. Because we
could not reconcile the RMTS results to supporting documentation, we are setting aside, for
CMS adjudication, $5,349,316 that was paid to all Missouri school districts ($1,491,120 for the
St. Louis Public and Springfield school districts and $3,858,196 for the other Missouri school
districts).

MEDICAID ADMINISTRATIVE CLAIMING NOT ADEQUATELY MONITORED

The State agency did not have adequate policies and procedures to monitor the SDAC program
and to ensure that all costs claimed met Federal requirements. The State agency staff informed
us that it performed a trend analysis on each school district’s SDAC invoice. The State agency
was to compare the current SDAC invoice to the prior SDAC invoice and question any variances
of greater than 5 percent. We identified variances of greater than 5 percent, but the State agency
could not provide supporting documentation that it had questioned any variances within our audit
period.

EFFECT OF UNALLOWABLE CLAIMS PAID

Because the State agency did not correctly calculate and claim only allowable administrative
costs for the SDAC program, it received $20,469,670 (Federal share) in unallowable Federal
reimbursement.

The two school districts we reviewed received a total of $4,212,506 (Federal share) for
unallowable costs. We recalculated the SDAC invoices using the revised sample, personnel
expenditures, Other Costs, indirect cost rate, and RMTS results. The St. Louis Public school
district was reimbursed $3,925,655 (Federal share) and the Springfield school district was
reimbursed $286,851 (Federal share) for unallowable costs.

In addition, because of errors identified during our review of the St. Louis and Springfield school
districts, the other Missouri school districts received $16,257,164 (Federal share) in unallowable
Medicaid payments for FYs 2004 through 2006:

7
  We did not specifically reconcile the control number used to identify each RMTS form to the statewide control
listing for the other Missouri school districts. However, while we did not verify the presence and effects of these
potential errors in the other Missouri school districts, it is likely that there were measurable effects. A potential error
in the RMTS percentages for any other Missouri school district could affect the amount of allowable administrative
costs claimed by the St. Louis Public and Springfield school districts and vice versa.


                                                           14
       Errors in the RMTS of the two audited school districts affected the calculation of the
        statewide RMTS percentages. As a result, an additional $1,283,719 (Federal share)
        claimed on behalf of the other Missouri school districts was unallowable.

       Contrary to Federal guidelines, the State agency did not include the nonresponses when
        calculating RMTS percentages, which resulted in the other Missouri school districts
        receiving $14,700,418 in unallowable payments.

       The State agency did not accurately account for all returned RMTS forms in the
        calculation of the SDAC expenditures. These RMTS response count errors affected the
        calculation of claims statewide. As a result, an additional $273,027 (Federal share)
        claimed on behalf of the other Missouri school districts was unallowable.

We are also setting aside $5,349,316 (Federal share)—$1,491,120 for the St. Louis Public and
Springfield school districts and $3,858,196 for the other Missouri school districts—because the
RMTS percentage used in the SDAC calculation for the quarter ending December 2004 could not
be supported. We could not identify, for that quarter, which RMTS results Maximus used to
calculate the statewide percentage of time SDAC participants spent on allocable Medicaid
administrative activities.

RECOMMENDATIONS

We recommend that the State agency:

       refund $20,469,670 ($4,212,506 for the St. Louis Public and Springfield school districts
        and $16,257,164 for the other Missouri school districts) to the Federal Government for
        unallowable SDAC expenditures;

       work with CMS to determine what portion of the $5,349,316 ($1,491,120 for the
        St. Louis Public and Springfield school districts and $3,858,196 for the other Missouri
        school districts) of school district administrative costs claimed for the quarter ending
        December 2004 was allowable;

       review all school district Medicaid administrative claims that the State agency paid after
        March 2006 to determine whether it included nonresponses in the sample and if so
        recalculate the administrative claims and refund to the Federal Government the amount
        overpaid; and

       strengthen policies and procedures to ensure SDAC expenditures submitted for Federal
        reimbursement are accurate and reasonable by:

            o reviewing RMTS forms, personnel costs, and other costs with the supporting
              documentation for a sample of school districts each quarter to ensure that the
              administrative costs are properly claimed and documentation complies with CMS
              guidance and



                                                15
           o performing the trend analysis on every school district each quarter to identify
             potential problems with the claims that the school districts submit to the State
             agency.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our second and fourth
recommendations, disagreed with our third recommendation, and partially agreed with our first
recommendation. A summary of the State agency’s points of disagreement and our response
follows. The State agency’s comments are presented in Appendix B. We excluded one
attachment because of its volume. We will forward all of the attachments in their entirety to
CMS.

For our first recommendation, which involved the $20,469,670 in questioned costs, the State
agency agreed with our findings as to inaccurate personnel costs ($1,730), the use of an improper
indirect cost rate ($139,390), and inaccurate other costs ($33,030). However, the State agency
disagreed with other findings that contributed to our first recommendation.

Claimed Costs That Should Have Been Offset by Other Federal Revenue Sources
But Were Not

State Agency Comments

The State agency disagreed that the two audited school districts, St. Louis Public and
Springfield, received unallowable Federal reimbursement totaling $457,329 and said that it is
continuing to analyze the additional information that we provided to the State agency, at its
request, after the exit conference.

Office of Inspector General Response

The State agency did not provide any additional information that would cause us to modify this
finding; therefore, we continue to recommend that the State agency refund $457,329 to the
Federal Government for these unallowable costs.

Nonresponses Excluded From Sample

State Agency Comments

The State agency disagreed with our finding, in which we questioned a combined $2,954,677 in
costs claimed for the St. Louis Public and Springfield school districts because the claimed costs
did not fully adhere to the provisions of the CMS guide regarding nonresponses. The State
agency said that the “RM[T]S calculation methodology is contained in the School District
Administrative Claiming manual ..., approved by CMS as stated in the February 27, 2004 letter”
from the CMS regional administrator to the State agency. Additionally, the State agency




                                               16
“reiterates its position that the RM[T]S oversampling was greater than 15% and would offset any
non-responses.”

Moreover, the State agency asserted that CMS correspondence to the State agency, dated
December 3, 2008 (in Appendix B), provided the State agency the option to oversample by
15 percent in lieu of counting nonresponses, pursuant to the 2003 CMS guide. The State agency
also said that CMS correspondence to the State agency, dated March 23, 2009 (in Appendix B),
provided an example of an acceptable nonresponse protocol: “If the 85% compliance rate is
reached without having to code non-Medicaid time, then non-returned moments will be ignored
since they are compensated by the 15% oversampling of the sample size.”

Office of Inspector General Response

In response to our request for clarification on this issue, a CMS official stated: “The Missouri
[School District Administrative Claiming manual] approved by CMS in 2004, was silent on the
issue of non-responses. The State did not explicitly elect to use an alternative methodology
which utilized oversampled responses in place of non-responses in its approved plan.” For a few
other State agencies, CMS has approved alternative methodologies in which the State agency’s
sample response rate is at least 85 percent.

The State agency is correct that CMS guidance permits oversampling in certain instances.
However, the State agency did not accurately summarize CMS’s position on the treatment of
nonresponses. In its December 3, 2008, correspondence to the State agency, CMS recommended
that the State agency calculate the sample size to an extent that included 15 percent oversampling
to ensure an adequate response rate. However, CMS did not state that the State agency had the
option of not counting nonresponses by oversampling. Rather, the CMS correspondence dated
December 3, 2008, states that the alternative methodology that CMS has approved elsewhere
involves the use of an 85 percent sample response rate, below which all nonresponses must be
included as non-Medicaid and above which nonresponses may be discarded. CMS
correspondence dated March 23, 2009, states that if an 85 percent response rate is not met, all
nonreturned moments will be included and coded as non-Medicaid time. Notwithstanding the
fact that the State agency oversampled far in excess of 15 percent, the State agency did not
achieve an 85-percent response rate in any of the quarters reviewed. (See Appendix A.)
Therefore, the State agency should have included all nonresponses as non-Medicaid activities.

Because the State agency’s alternative methodology for nonresponses (i.e., not counting them)
was not approved by CMS and the response rate was, on average, 75.47 percent, well below the
85-percent threshold established by CMS, we continue to recommend that the State agency
refund $2,954,677 to the Federal Government for the St. Louis Public and Springfield school
districts and $14,700,418 for the remaining 355 Missouri school districts.




                                               17
Inaccurate Random Moment Time Study Forms

State Agency Comments

The State agency disagreed with our finding, in which we questioned a combined $384,505 in
costs claimed for the St. Louis Public and Springfield school districts, that RMTS forms were
completed inaccurately. The State agency said that it disagrees with this finding “until it has an
opportunity to .... conduct its own review” of the RMTS forms that we noted as errors.

Office of Inspector General Response

We returned all RMTS forms that we had reviewed to the State agency on October 15, 2007. In
addition, we shared the results of our review with State agency officials on August 25, 2009,
shortly after our exit conference, and again on October 13, 2009. The State agency did not
provide any additional information, either at that time or in its written comments on our draft
report, that would cause us to modify our findings regarding inaccurate RMTS forms. Therefore,
we continue to recommend that the State agency refund $384,505 to the Federal Government for
the St. Louis Public and Springfield school districts and $1,283,719 for the remaining 355
Missouri school districts.

Inaccurate Response Count

State Agency Comments

The State agency partially agreed with our finding, in which we questioned a combined $241,845
in costs claimed for the St. Louis Public and Springfield school districts, that it calculated these
districts’ SDAC invoices for the quarter ended June 2004 using incorrect and unsupported
RMTS forms. The State agency agreed that the RMTS response count used in the calculation of
the June 2004 invoices for the St. Louis Public and Springfield school districts was inaccurate,
but it did not agree with the error amount. The State agency recalculated the St. Louis Public
school district’s claim for the quarter ending June 2004 using the correct response count that we
noted and determined that the St. Louis Public school district was overpaid by $66,278, not
$231,180 as we stated. The State agency provided details on the recalculation as part of its
written comments on our draft report and added that it will perform a similar recalculation for the
Springfield school district once the necessary material is retrieved from archives. The State
agency said that it “will refund the difference for St. Louis and Springfield upon the
recalculation.”

The State agency partially agreed with our finding that the RMTS response count used in the
calculation of the June 2004 invoice was inaccurate and that it therefore affected the calculation
of claims for the remaining 355 Missouri school districts—a finding that we discussed in the
“Inaccurate Response Count Affected Claims Statewide” section and that also contributed to our
first recommendation. However, the State agency did not agree with this finding’s amount of
$273,027.




                                                18
Office of Inspector General Response

The State agency provided an updated SDAC invoice using the correct response count of 2,734.
However, when the State agency recalculated the St. Louis Public school district’s administrative
claim, it did so by incorporating all indirect costs, when pursuant to 42 CFR § 433.15(7) it
should have calculated these indirect costs on the basis of 50-percent Federal reimbursement.
The State agency did not provide any additional information pertaining to the Springfield Public
School District. Therefore, we continue to recommend that the State agency refund $241,845 for
the St. Louis Public and Springfield school districts.

The State agency did not provide any additional information pertaining to the statewide claims
for the quarter ending June 2004 that would cause us to modify this finding; therefore, we
continue to recommend that the State agency refund $273,027 to the Federal Government for the
remaining 355 Missouri school districts.

Review of School District Administrative Claims Regarding Inclusion
of Nonresponses in the Sample

State Agency Comments

The State agency disagreed with our third recommendation and stated that its policy of
withholding nonresponses from the RMTS sample “was correct and had the approval of CMS.”

Office of Inspector General Response

The State agency did not provide any additional information to support that CMS had approved
the alternate RMTS methodology. Therefore, we maintain that the State agency should review
all administrative claims that the State agency paid after March 2006 to determine whether it
included nonresponses in the sample and refund to the Federal Government any amount
overpaid.




                                               19
APPENDIXES
                                                                                         Page 1 of 2

    APPENDIX A: REVISED SAMPLE SIZE THAT INCLUDES NONRESPONSES

When calculating the Missouri School District Administrative Claiming (SDAC) invoices, the
Missouri HealthNet Division (State agency) of the Department of Social Services did not include
100 percent of the sampled random moment time study (RMTS) forms. Instead, the State
agency excluded all nonresponses from the calculation, contrary to the provisions of the Centers
for Medicare & Medicaid Services (CMS) Medicaid School-Based Administrative Guide (CMS
guide), section V(B). For example, the State agency selected 4,000 random moments to include
in the sample population for the March 2005 quarterly SDAC invoice. However, the calculation
of the school districts’ claim included only a portion of the RMTS forms. The State agency
eliminated the nonresponses. Consequently, the State agency incorrectly calculated the SDAC
claim based on the 3,081 completed and returned RMTS forms.

The SDAC claim is calculated using the RMTS results and each school district’s personnel
expenditures, Other Costs, percentage of eligible individuals in the school district, indirect cost
rate, and statewide RMTS results.
                                                                                                                Page 2 of 2


                                        The Effect of Nonresponses on Sample Size
                                                 Returned                                        OIG Adjusted
                                                  Sample        Statewide                        Sample That
               Sample                           Responses        RMTS                              Includes
              Responses      Nonresponses          “Not        Forms Sent        Sample of        Responses            Actual
Quarter        Used by       Excluded by        Scheduled           to           Working             and              Response
Ending        Maximus         Maximus           to Work” 1     Participants     Participants     Nonresponses        Percentage 2

                   A                B                C               D             D-C=E                 F            (A/F)H100
Dec                 2,211                470             319         3,000            2,681                  2,681       82.47%
2003
Mar                 2,061                690             249         3,000              2,751                2,751         74.92
2004
June                2,080                989             277         4,000 3            3,723                3,723         73.44
2004
Sept                2,675               1,023            302         4,000              3,698                3,698         72.34
2004
Dec
2004 4
Mar                 3,081                919               0         4,000              4,000                4,000         77.03
2005
June                2,645               1,354              0         3,999              3,999                3,999         66.14
2005
Sept                3,081                919               0         4,000              4,000                4,000         77.03
2005
Dec                 3,307                693               0         4,000              4,000                4,000         82.68
2005
Mar                 2,998               1,002              0         4,000              4,000                4,000         74.95
2006
  Total           24,139                8,059         1,147         33,999             32,852             32,852           75.47%

          OIG=Office of Inspector General

          1
            The State agency changed its RMTS methodology during the quarter ending March 2005. Before March 2005, the
          State agency eliminated all returned sample responses with an RMTS code of “Not Scheduled to Work.” Effective
          the quarter ending March 2005, the sample response of “Not Scheduled to Work” was no longer an option on the
          RMTS form.
          2
            The count in column A for the quarter ending June 2004 excludes 654 RMTS forms because the State agency
          incorrectly excluded these forms from the quarter’s calculations for the St. Louis Public and Springfield school
          districts. The incorrect exclusion of these RMTS forms also affected the calculation of administrative costs on a
          statewide basis. To account for all completed and returned RMTS forms, we added the 654 responses to the counts
          in column A to calculate the “Actual Response Percentage” for the quarter ending June 2004 and for the total actual
          response percentage.
          3
           For this quarter, the State agency sent out 4,000 RMTS forms, of which 2,734 were completed and returned. The
          State agency incorrectly excluded 654 RMTS forms from its calculations and so incorrectly included only 2,080
          completed and returned RMTS forms when calculating and claiming the administrative costs. This finding is
          discussed in the “Inaccurate Response Count” section of the report.
          4
           The State agency could not support the RMTS results used in calculating each school district’s administrative
          claim. Therefore, we are setting aside, for CMS adjudication, the expenditures claimed for the quarter ending
          December 2004; these expenditures are not included in the RMTS analysis.
                                                                                                                           Page 1 of23

              APPENDIX B: STATE AGENCY COMMENTS 





'{focIXtsER~ICES
             10m' POi(!lIlial. Our SupPQrt.
                                                                JfiM[MIAH   w. (J AY) NI XON, GoVERNOR· ROI<ALU J. t nv. DIRECTOR
                                              P.O. BOX Il27· I'IROADWAV SlATEOFfK:ERUIU>''''' ' JEf.ER:ION<: rrV. M06i I02·IS17
                                                                             '"'''''W,OOS.MO.OOV · '13. 7'141 15 · 7S 1·3203fAX




                                           October 20, 2009


  Patrick J . Cogley 

  Regional Inspector General for Audit Services 

  Office of Inspector General
  Federal Office Building
  601 East 12\1'1 Street, Room 429
  Kansas City, Missouri 64106

  Dear Mr. Cogley:

  The Missouri Department of Social Services (OSS) hereby responds to the Office of
  I nspector General's (OIG) draft re port, titled ~Revlew of Missouri Medicaid
  Payments for the School Distric t Administrative Claiming Program for Federal Fiscal
  Years 2004 through 2006" dated August 2009. The draft report concerns the audit
  of Missouri's Medicaid payments for services performed by Missouri school districts
  under the School District Administrative Claiming (SDAC) program. Our response to
  each of the recommendations is presented in the follow ing paragraphs. The OlG
  find ing is restated for ease of reference.

  Recommendation: Refund $20,469,670 ($4, 212,506 for the St. Louis Public
  and Springfield school districts and $16, 257, 164 for the other Missouri
  school districts) to the Fede ra l Government for una llowa ble SDAC
  expenditures .
  Response: The DSS partially agrees with this recommendation. Our posit ion on
  each of t he findings that comprise the amount the OlG recommends the DSS return
  to the Federal Government is presented in the following paragraphs.


         Claimed Costs That Should H iJ ve Been Offset by Other Fee/e ral
         Revenue Sources ($457, 329)
         According to the draft report, the two audited school districts, St. Louis PubliC
         and Springfield, received unallowable Federal reimbursement totaling
         $457,329 in personnel costs for employees whose salaries were partially
         funded by another Federal program, such as the ROTC program (funded by
         the Department of Defense). The two school districts should have allocated
                                                    RH.AY MISSOURI
                                          ffil(HtAli:r~ANDspu<;H         '''.A'.W
                                 !.s<lI).1H·2466   VOK,."j; '   1·MlO-1)S·2966"'[[Xl PlIONE
                            "'1iqoI>I1_..""~.,..,,.,. _ .. pt-.J"" '.'"'''''''''-''''I'''''
                                                                                   Page 2 of23




these personnel costs appropriately between the various Federal programs
that were fund ing those costs. Instead, the two school districts did not offset
these claimed costs on the basis of the other Federal revenue sources that
had contributed to the funding of those salaries.
Response : The DSS disagrees with the finding. At t his time DSS continues
its analysis of the additional documentation and explanation provided in the
October 7, 20091etter from the DIG to valida te t his finding.


Inaccurate Personnel Costs ($1, 730)
MAXIMUS included on the Springfield school district 's invoice personnel cost s
that were not supported by documentation. For the quarter ending
September 2004, MAXIMUS reported $30,000 more to the State agency in
personnel costs than t he SprIngfield school district reported to MAXIMUS.
Because of this error, the Springfield school district received $1,730 in
unallowable Federal reimbursement.
Response: The DSS agrees with this finding that Its contractor, MAXIM US,
was in error and will refund $1,730 in Federal reimbursement.


Improper Indirect Cost Rate ($1391 390)

The St. Louis Public school district received unallowable Federal
reimbursement totaling $139,390 because MAXIMUS used an incorrect
indirect cost rate- which had not been approved-to calculate that district's
claim for the quarters ending June 2003 and September 2003 . The Missouri
Department of Elementary and Secondary Education (DESE) is the cognizant
agency that provides the approved Indirect cost rate for each school dIstrict
to the State agency. Each school district Is to use that rate In claiming Its
indirect costs. MAXIMUS used an indirect cost rate of 31.52 percent for the
St . LouiS Public school district. However, the DESE-approved Indirect cost
rate for the St. Louis PubliC school district was 24.67 percent. Because
MAXIMUS used the Incorrect indirect cost rate, the st. louIs Public school
district claimed costs that did not conform to the approved rate and t herefore
receIved $139,390 In Unallowable Federal reimbursement.

Response: The DSS agrees with this finding and will refund $139,390 In
Federal reimbursement.


Inaccurate Other Costs ($33, 030)

MAXIMUS did not properly calculate the Other Costs claimed on the SDAC
Invoices. First, the Springfield school district provided inaccurate year-to­
date numbers, which MAXIMUS used when calculating the Other Costs.
Second, neither the two audited school districts nor MAXIMUS could support
all of the expenditures (for Other Costs) reported to MAXI MUS. The
                                    2
                                                                                     Page 3 of23




combined effect of these errors was that the two audited school districts
received a total of $33,030 in unallowable Federal reimbursement for Other
Costs.

Response:      The DSS agree s with the fin ding on the use of Inaccurate
~y ear-to-date numbers and unsupported expenditures in the Other Costs
                        N




calculations and will refund $33,030 in Federal re imbursement.


Non-responses Excluded from Sample ($2,954,677)

The State agency did not fully adhere to the provisions of the eMS guide
regard ing non-response RMS forms. The State agency applied an alternate
methodology in which It opted to oversample to ensure a minimum number
of responses but did not consider t he non-responses in the res ults. The
State agency applied two different methodologies during the period
reviewed. Neither methodology was described in t he procedure tha t was
CMS-appro....ed. Pursuant to the CMS guide, all non-responses should ha ....e
been coded to non-Medicaid time study codes.

CMS central and regional offices informed the DIG that State Medicaid
agencies can use o....ersampling to factor non-responses Into their
methodology but only with prior appro.... al from CMS fo r the use of th e
alternat e methodology. Any alternate methodology used to compensate for
non·responses must be submitted to CMS for re ....iew and appro .... al before
implementation and must also be statistically ....alid and reliab le .

Out of 32,852 RMS forms sent to SDAC participants Statewide, the State
agency did not Include 8,059 non-responses in the RMS samples for the nine
quarters re ....iewed. Instead, the State agency applied an alternate
methodology that omitted the 8,059 non-response RMS forms. The a....erage
non- response rate fo r the nine quarters re....iewed was 24 percent, with a high
of 34 percent In one quarter.

Because t he State agency used an unappro....ed alternate methodology tha t
discarded the RMS non-responses and because those non-responses
constitut ed such a high proportion of the RMS forms sent to the SOAC
participants statewide, DIG has concluded that the estimates from t he RMS
were not reliable. CMS central and regional offices agreed with this
determination.

After identifying the improperly excluded non-responses, DIG used the State
agency's methodology but also accounted for 100 percent of the samples
pursuant to the CMS guide. DIG used the State agency'S for mulas for
calculat ing administrati .... e costs and determined the effect by comparing th e
original claiming in ....oices to the total of audited RMS samples. DIG
det ermined that because of their improper exclUSion of non-responses, the
two audited school districts recei ....ed $2,954,677 {$2,794,324 for the St.

                                     3
                                                                                    Page 4 of23




louis Public school district and $160,353 for the springfield school district) in
unallowable Federal reimbursement.

Response: The DSS disagrees w ith this finding. The State's RMS calculation
methodology is contained in the School District Administrative Claiming
manual (Attachment A), approved by eMS as stated in the February 27, 2004
letter from Thomas W. Lenz (Attachment B). I n addition, the State received
correspondence from eMS providing States the option of not counting non­
responses by oversampling the RMS forms by 15% per the 2003 eMS guide.
This letter dated December 3, 2008 is provided as Attachment C.
Attachment D is a eMS letter dated March 23, 2009 stating that an example
of an acceptable non-response protocol is ~ if the 85% compliance rate is
reached without having to code non-Medicaid time then non-returned
moments will be Ignored since they are compensated by the 15%
oversampling of the sample Size. ~

Based on the attached documentation, the State reiterates its position that
the RMS oversampling was greater than 15% and would offset any non­
responses. At the'time of the period reviewed by the OIG audit, MHD was
conducting RMS sampling with 4,000 moments per quarter. The DSS
Research and EvalUation Unit determined that a statistically valid sample for
the RMS population would be 1,200 moments. The DSS Research and
Evaluation Unit used a confidence level of 95% and margin of error + I - 5%
as required by the eMS 2003 Guide. Based on the average population size of
16,000, a valid sample is calculated to be 376 valid responses. Based on
valid sample calculations, the use of a sample size of 1,200 Includes an
oversampllng of 319%. Since the State was using a sample size of 4,000
forms per quarter and the valid sample size is 376 forms, the State actually
oversampled by 1064%.


Inaccurate Random Moment Time Study Forms ( $ 384, 505)
The State agency did not monitor the RMS to ensure the RMS forms (a) were
properly completed and (b) supported the activities performed. The two
school districts reviewed completed 293 out of 1,679 RMS forms (17.S
percent) Inaccurately, but MAXIMUS included t hese inaccurately completed
RMS forms when It calculated the RMS percentages. The three types of
errors are as follows:

   1) 	Of t he 293 inaccurate RMS forms, 235 forms (80 percent) had an
       activity code and a wrItten description that did not match.

   2) Of the 293 inaccurate RMS forms, 24 forms (8 percent) either had no
      written description of the activity or the description was so vague that
      it did not support the activity .

   3) 	Of t he 293 Inaccurate RMS forms, 34 forms (12 percent) were either
       not dated or were dated before or significantly after (Le., after the 7­
                                   4
                                                                                    Page 5 of23




      day cutoff established for timely completion) the selected random
       moment.

The 293 RMS coding errors were reclassified and the SDAC invoices for the
St. Louis Public and Springfield school districts were reca lculated accordingly.
Because of t he RMS codIng errors, t he two school districts receIved $384,505
($367,191 for the St. Louis Public school distri ct and $17,314 for the
Springfield school district) in unallowable Federal reimbursement.

Response: The 055 d isagre es with the finding unti l it has an opportunity to
review RMS forms reviewed by the OIG. The 055 is gathering t he forms
reviewed by the OIG to conduct its own review for potential errors. In the
previous OIG audit of the SDAC program, a similar finding was presented. [n
the DSS re view of the finding, it was determined that the GIG fin ding was in
error as the coding was Inaccurately interpreted and applied to the RMS
forms under review. In the previOus audit, t he OIG contended that 163 out of
the 168 forms were inaccurate. In the DSS review, it was determined that
only 52 forms were in error, a significant difference in findings.


Inaccurate Response Count ($24j,845)
The State agency calculated the St. Louis Public and Springfield school
districts' SDAC Invoices for the quarter ending June 2004 using Incorrect and
unsupported RMS forms. In particular , the State agency used a total RMS
coun t of 2,080 . However, documentation supported that 2,734 RMS forms
were completed and returne d. Therefore, the State agency did not account
for 654 of the completed and returned RMS forms when calculating and
claiming t he administrative costs for the St. louis Public and Springfield
school districts.

As a result of these errors, the two school districts received a t otal of
$241,845 ($231,180 for the St. Louis Public school district and $10,665 for
the Springfi eld school district) in unallowable Federal reimbursement.

Response: The DSS partially agrees with the find ing that Inaccurate RMS
response counts were used in the quarter ending 2004 invoices for St. Louis
Public and Spri ngfield school districts. While the DSS agrees that the RMS
response count used In the invoice was Inaccurate, the DSS does not agree
with the error amount.

Based on the recalculation of the St. LouiS invoice for quarter ending June
2004, the DSS used the response count of 2,734. I n the recalculation, the
DSS determined St. Louis was overpaid by $66,277.72, not $23 1,180 as
stat ed by the OIG. The recalculated St. LouiS invoice is provided In
Attachment E. The DSS will recalculate the Springfield quarter ending June
2004 Invoice upon receipt from archives and will refund the difference for St.
Louis and Springfield upon the recalculation.

                                     5
                                                                                      Page 6 of23




IDENTIFIED INACCURACIES AT AUDITED SCHOOL DISTRICTS AFFECTED
CLAIMS STATEWIDE
    Random Moment Time Study Errors Affected Claims Statewide
     ($1,283,719)
    Because the statewide RMS was calculated using responses from all Missouri
    school districts, RMS errors associated with the two audited school districts
    affected the amounts claimed on the SDAC invoices for each of the other
    Missouri school districts. Therefore, the OIG used the audited RMS response
    count !Tom the St. Louis Public and Springfield school districts (for which the
    29) RMS coding errors were reclass ified) to recalculate the statewide RMS
    percentages for the ot her Missouri school districts. In turn, the recalculated
    percentages affected the SDAC invoices statewide. After recalculating the
    SDAC invoices, it was determined that the other Missouri school districts
    received $1,283,719 in unallowable Federal reimbursement.


     Response: The DSS disagrees with the finding until it has an opportunity to
     review RMS forms reviewed by the OIG. The DSS is gathering the forms
     reviewed by t he OIG to conduct Its own rev iew for potential errors. In the
     previous OIG audit of the SDAC program, a similar findi ng was presented. In
     the DSS review of the find ing, it was determined that the OIG finding was In
     error as the coding was inaccurately interpreted and applied to the RMS
     forms under review. I n the previOUS audit, the OIG contended that 163 out of
     the 168 forms were inaccurate. In the DSS review, it was determined that
     only 52 forms were in error, a significant difference in find ings.



     Inaccurate Response Count Affected Claims Sta tewide ($273, 027)
     For one quarter, the State agency calculated the SDAC invoices using
     incorrect and unsupported RMS forms. Specifically, the State agency used
     the RMS count In calculating each school district's administrative claim. The
     State agency then used the RMS coun t to determine the RMS percentages.
     For the quarter ending June 2004, the State agency did not account for 100
     percent of the completed and retumed RMS forms. Out of 2,734 completed
     and retumed RMS forms, the State agency incorrectly included only 2,080
     completed and retumed RMS forms in its calculation of the ad ministrative
     claims. After recalculating the SDAC invoices on the basis of the 2,734
     completed and returned RMS forms reflected In the supporting
     documentation, we determined that the other Missouri school districts
     rece ived $273,027 in unallowable Federal rei mbursement.

     Response: The DSS partially agrees with the finding that inaccurate RMS
     response counts were used in the quarter ending 2004 invoices for school
     districts. While the DSS agrees that the RMS response cou nt used in the
     invoice was Inaccurate, the State disputes the calculation of the error
                                        6
                                                                                   Page 7 of23




amount. The OIG states that the calculation related to this finding was based
on an average of the Medicaid eligibility rate and Indirect cost rate for each
district and applied to a $100 claim. The difference In the two RMS forms
count calculation were then applied to the total paid amount fo r all unaudited
districts. This methodology is inaccurate as the Medicaid eligibility rate and
indirect cost rates vary greatly amount the districts statewide. Applying an
average across all districts will skew the outcome. To accurately determine
the unallowable costs, the 055 will recalculate each district's individual
Invoice for the quarter ending June 2004.

Based on the recalculation of the St. Louis Invoice as stated above, the 055
will reca lculate each district's invoice for the quarter ending June 2004. The
DSS will use the response count of 2,734 in the recalcu lations. The DSS will
recalculate the invoices for all districts and wltl refund the difference within
120 days from the date of the letter.



Non-responses Not I n cluded i n Sa mple on Claim s Statew ide
($1 4,700 ,41 8)
The State agency did not fully adhere to the eMS guide regarding non­
response RMS forms. Because the State agency did not properly inetude
8,059 non-responses when det ermining the RMS percentages, the remaining
355 Missouri school districts received $14,700,418 In unallowable Federal
reimbursement.

Response: The DSS disagrees with this finding. The State's RMS
calculation methodology is contained in the School District Administrative
Claiming manual (Attachment A), approved by CMS as stated in the February
27,2004 letter from Thomas W. Lenz (Attachment B). I n addition, the State
received correspondence from CMS providing States the option of not
counting non-responses by oversampling the RMS forms by 15% per the
2003 CMS gUide. This letter dated December 3, 2008 is provided as
Attachment C. Attachment D is a CMS letter dated March 23, 2009 stating
that ~if the 85% compliance rate is reached without having to code non­
Medicaid time then non-returned moments will be Ignored since they are
compensated by the 15% oversampllng of the sample size.~

Based on the attached documentation, the State reiterates its position that
the RMS oversampling was greater than 15% and would offset any non­
responses. At the time of the period reviewed by the OIG audit, MHD was
conducting RMS sampling with 4,000 moments per quarter. The DSS
Research and Evaluation Unit determined that a statistically valid sample for
the RMS population would be 1,200 moments. The DSS Research and
Evaluation Unit used a con fidence level of 95% and margin of error + I - 5%
as requ ired by the CMS 2003 Guide. Based on the average population size of
16,000, a valid sample is calculated to be 376 valid responses. Based on
valid sample calculations, the use of a sample size of 1,200 includes an
                                     7
                                                                                       Page 8 of23




      oversampling of 319%. Since the State was using a sample size of 4,000
      forms per quarter and the valid sample size is 376 forms, the State actually
      oversampled by 1064% .



Recommendation: Work with eMS to determine what portion of the
$5,349,316 ($1,491,120 for the St. Louis Public and Springfield school
districts and $3,858,196 for the other Missouri school districts) of school
district administrative costs claimed for the quarter ending December 2004
was unallowable.
The State agency could not support one quarter of the RMS results used In
calculating the administrative claim for each of the two school districts reviewed.
MAXIMUS provided statewide control listings, which specified the RMS forms it used
to calculate, for each quarter, the statewide percentage of time that SDAC
participants spent on allocable Medicaid administrative activities. For the quarter
ending December 2004, the con t rol number used to Identify each RMS form for the
St. louis Public and Springfield school districts did not match the control number
shown on the statewide control listing provided by MAXIMUS. In other words, the
list of SDAC participants selected to be sampled at random moments was different
from the list of SDAC participants who were actually sampled and gave responses.
Consequently, GIG could not determine, for the quarter ending December 2004,
which RMS form results MAXIMUS used to calculate the statewide percentage of
time that SDAC participants spent on allowable Medicaid administrative activities.
Neither the State agency nor MAXIM US was able to accurately Identify the RMS
forms that MAXIMUS had actually used to claim administrative expenses. Because
the GIG could not reconc ile the RMS results to supporting documentation, the
$5,349,319 that was paid to all Missouri school districts ($1, 491 ,120 for the St.
louiS Public and Springfield school districts and $3,858,196 for the other Missouri
school districts) Is being set aside for CMS adjudication.

Response: The DSS agrees the statewide control listing and results files produced
for quarter ending December 2004 cannot be matched on RMS control numbers.
The DSS will review the reports available and provide the accurate documentation
to support the claiming for this quarter. The DSS will work with CMS to resolve this
discrepancy.


Recommendation: Review all school district Medi caid administrative claims
that the State agency paid after March 2006 to determine whether it
included non responses in the sample and if so recalculate the
administrative claims and refund to the Federal Government the amount
overpaid.

Response: The DSS disagrees with this recommendation. As previously stated, the
DSS position is that the policy used for not including non-responses In the RMS
sample was correct and had the approval of CMS.

                                         ,

                                                                                          Page 9 of23




Recommendation: Strengt"e n policies and procedures to e nsure SDAC
expenditures submitted for Federal rei mburseme nt are accurate and
r easonable by:

   • 	 Revi ew i ng RMTS fo r ms, personnel costs, a nd other costs with th e
       supporting documentation for a sample of school districts each
       quarter t o e nsure that the administrative costs are proper ly clai m ed
       an d documentation complies with eMS gu idance.

   • 	 Pe rform ing the tre nd analysis on every school district each quarte r to
       identify potential problems with the claims that th e schoo l d istricts
      submit to the State age ncy.

The State agency did not have adequate polices and procedures to monitor the
SDAC program and to ensure that all costs claimed met federal requirements. The
State agency staff Informed us that it performed a trend analysis on each school
district's SDAC invoice. The State agency was to compare the current SDAC Invoice
to the prior SDAC invoice and question any variances of greater than 5 percent.
We Identified variances of greater than 5 percent, but the State agency could not
provide supporting documentation that It had questioned any vaJiances within our
audit period.

Respo nse: The DSS agrees that monitoring efforts during the review period were
limited In scope. Since the review period, the DSS increased monitoring efforts.
Prior t o Invoice payment, the DSS requires the following steps be accurately met:

   • 	 Compare claimed salary, benefit, other cost and total costs to the district's
       same quarter Invoice the previOUS year. If the district did not bill for t he
       same quarter t he previous year, the comparison Is made with the most
       recent quarter rece ived.
           o 	 Any variance of at least +/- 5% is submitted to the dist rict for
               explanation .
           o 	 Upon receipt of acceptable explanation (i.e. staff salary Increase,
               remova l of staff from cost pool due to staff reductions), the Invoice
               review process resumes.
           o 	 If the district has determined an error in costs claimed, the district
               must resubmit the invoice with corrections.
   • 	 Verification of current certification of expenditures on file.
           o 	 If certification is not on fi le, district Is notified to submit current
               certification.
           o 	 Upon receipt of current certification, the Invoice review process
               resumes.
   • 	 Compare the claimed eligibility rate to the rate on file as provided by the
       St ate Information Technology Division.
           o 	 If claimed eligibility rate does not match, district Is requested to
               resubmit invoice with proper eligibility rate.


                                            9
                                                                                      Page 10 of23




   • 	 Verification that the proper indirect cost rate is claimed as found on the 

       Department of Elementary and Secondary Education listing of certified 

      indirect cost rates .
          o 	 If claimed indirect cost rate does not match, district is required to
              resubmit invoice with accurate rate.
   • 	 Periodically randomly selected Invoices are recalculated to assure
      mathematical accuracy.
             o 	 Any inconsistencies require the invoice to be resubmitted accurately by
                 the district.

If any of these steps is not accurately met, the invoice is not submitted for
reimbursement . Districts would be required to revise each Identified error on the
Invoice and resubmit the invoice. Each revised invoice is required to meet the
review steps as stated above .


Please contact Ian McCaslin, M.D., M.P.H. at 573-751-6922 if you have any further
questions regarding the DSS response.

Sincerely,



Ronald J. l evy
Director


RJl/db




                                             10
                                                                                              Page 11 of23

Centers for MeQcare &. Medicaid Services
601 East 12'" SUeet. S\.l~e 235
                                                                                   c~s
Kansas City. Missouri 64106

Division of Medicaid and Children's Health

                                                                         I /.   ; ' .   _ I
Refer to:
MB:DH

                                                     February 27, 2004



Mr. Sieve Roling, Director
Missouri Department of Social Services
Broadway State Office Building
P.O. Box 1527
Jefferson City, Missouri 65102


RE: Missouri Medicaid School District Administrative Claiming Manual for School-Based
Services

De~r   Mr. Roling: 	
                         ­



We have completed our review of the Missouri Medicaid School District Administrative
                                                                                              --­
Claiming manual with a proposed effective dale of October 1, 2003, and the additional
information and revisions to the program submitted thereafter. Based on our review,
this program is approved effective October 1, 2003, subject to the following conditions:

   a) 	 Revise the cost allocation plan for the quarter beginning October 1, 2003. The
        MAC program guide and the Interagency Agreements should be referenced in
        the applicable school-based organization code descriptions.

   b) 	 In the interim, the current cost and time study methodology may continue for
        services provided prior to October 1, 2003. .

We appreciate the dedicated work provided by your staff in order to produce this
program guide and look forward to our ongoing partnership in the refinement of this
program.




                 ."	   ~'? ,   ~, 	   ' •. I I   ,                        'ff : 	. '
                                                                                    Page 12 of23



 Page 2 - Roling


 If you have any questions about this letter or the Adm inistrative Claiming process,
 please contact Narinder Singh or Doug Hinton of the Regional Office at (816) 426·5925.




                                        Sincere~,   yJ 1/
                                        dLenz
                                      (:~~Re9ional          Administrator
                                       LnV!sion of Medicaid and Children's Health


 cc;       Sandra Levels




-

                                                                                                                        Page 13 of23


                                                                                                                                    I. '


DEt'AR"lMENTO F HEAL TH & HUMAN SERVICES
C"nl~rs    tv, Mdicar~ &: M~d l ~ald Se,.... ic(,~
6('1 1 E'SI12~ S:rc.( . S,m"n5
K ~ns ~ ,   Cit} . M":"" .,1r, (,4 106

Division of Medic.li d a nd Children'l> He alth Operations
                                            Decemher 3, 2008



Ian McCaslin, III1D , MPH , Director
MO Health Net Division
Depanmenl 01 Social Services
Broadway Stale Office Buiiding
P.O. 30):' 6500
Jefferson Cny Missouri (;5102-6500

Dear Df.~~
Ws have reviewed the: revisions submitted on Seplemt;er 29 , 20()& oy tht:: Missoun
Department of Social Services 10 the i emfJlal~. im thE; MO Hcattnblel School D j~micl
.4.dminislr<Jtivt; ClcllITIing (SDAG) program , proposed effective dal& Jul' 1 20n8

:::iv!S mfl~1 have mdilkJ rmi comm!:mIS andror quesllon~ on in ;€ prOptlDe~ reviSion s to th E:
hAG Healthl-ie( School District Administrative (;iaimirlJ prograrr . .<.;tt!:<1 im ~II~r'.-,entation
and/or applicati,-m of changes \0 ths program.

     CloJlS GuestiQm: and Comments on Missouri's                             ~ uA':;   ("uici€

      'I. 	 PIEiasc clarify if the Random Moment Sampiing (RM3 ) mettlo dology will b£cl 

            conduct",d statewide or by school distriCt. This is based on if the worker-m oment 

            sample will be drawn from a statewide unlVf:rse of worker-lTIomen ts or d istrict­

            wide universe. PleaSE; keep in mind thai in either case the statistical criteria of 

            95% confidence level and +/-2% precisiun (or +/·5% pre<:islon if Ir,e highest 

            utilizaiion rate lor any aClivilY cod: is 5% or less) must be mel. In dislric\-wide 

            methodoiogy, a m inimum statisti::ally valid sa mple ot worker-rnornsnis has to be 

            studied for each district. This wou ld rf:quire a larger number of worker- m oments 

            per sctlOol district versus a slatewide sample universa, Either w ay , please 

            ca!culate the s ampl ~ size 10 includE: 15% ov-ersampling \C enr.ure ar! adequaie 

            response ra te . 


     .:.. 	 'ThE   Sla le is also prDpOSlng 10 condll::l coniinuaus Urns-logs for some 

             ad mln isira !iv~ staff. in thi s case , givi::!n tne small numtJe: of partIcipatin g stafi ilt 

             each :jis tri~L 100% time-bgs must be studied, m8aning all limE for all s taff must 

             be bgg8d , which is quile blJ,jeIlSDm~ . Slut€. ma ~' :;;:m:;iot!f E: stat,:,,-wide tim::,· 

             log~ inal may requ ire on!)' 6 c..ne~or Iwc" week iime s tud~ ' oar qu arte ~ d"~penc!Jn~' 

             on the lOla! number of partbpatin ;: stat:                         t. (ms.-weel : I!r.-tE-ltIQ fn-Get~ Ine 

             smtJ5i,,,,a! cm",ri, if ,:-, 1;: numtJ'=:! .:-;1 sian I"~ 4Cil' ~'t rll~m e: Wf(er~<: :. a !1"( - 1" 8 81' tifT!'" 

                                                                                                         Page 14 of23


Page 2 - tan McCaslin, MD , MPH


         st udy is needed for staff number between 200 and 400. Please ind icate the
         anticipated approximate number of staff pClrlicipaling in this type of worker log
         time study, as well as in Ihe RMS time sludy.

         eMS can provide additional technica l assistance on the RMS and lime-log
         methodologies , as needed . As a general question, why is the Stale allowing for
         the use of two different lime study methodologies? This would seem to increase
         the level of oversiglll and monitoring that the State must conduct.

   3. 	 A validation method for both time siudles IS needed w ensure the accuracy of Ine
        lime stud y data V aiidatlon of collecied data implies the authenticity of Ihe dala
        or in other words, we are collecting the dala thai we Intended to collect in th e
        l ime study . V arious melhods are available for Ihls purpOSe . An a cce plabl~
        meUlOO IS validation oi 10% of the sample by a n Inder endeni ohservt:!r/ s). eMS
        needs srecilk.: percentage of momenls Ir,<l t will us checked <lnd validated (at
        le a~ t 5% 01 moments will tJ~ va lidated) by an indepefl{Jant source (by sJ meon ~
        (Jther than the person whc wmpleled the- tim e sludy ). For e>:ampl= . ar,
        a:::cepiablE: method iar ad ministrative cost limE: studies is validation of 10% of IriS
        sample by ar; independent observer(s). Tnis m ethacl verifies th e> accurac.)' an d
        authenii:::it)' of the collecied dat;..

  .~ 	   Ins Stat8 ner:.dS TO inClude 2 prow:;ol I(Jr tnfo: treaiment of lim£> stud), nor,·
         resPQrlses TtiE: May ::tOG::; eMS fv~e d i ca ld Sct,ooi-2;ased Adrl"linislra tivfl CI1'l iming
         '.3uidlS (the G Uide) d~scribe s thE: treat",.. nl of tirne :,,fUcly non-responses on p ag -::­
         ~1      VVhil~ the G Uidi;; s:a\es that • .. .all flon-resp onses snould be code~ : nor,·
         M~cil ~ l d.'· it a!scJ 1 i"lclude ~ tanguag-:, suggesting t hat oversarnp!irlg car, be us"d 10
         suosil((Jte respo nses. for non-responses , as foll:>w£. · "....many serlools
         oversample andlor fiJGl or In a non-response; rate If! their lime study
         methodology." inclusion 01 both of these Sli:lternents in the G uide recognizes th8
         possibility l or the use of alternate methodologies io address non-responses . As
         a general principle , any alternate methodology for the treatment of nor,·
         r&sponse s mllsi be stalislicali), va li d. as per O!v1B Circular A·57. SU C ~I alternate
         methodOlogies would need to be submitted to CMS for review and approval b)'
         eMS. Subsequent to thc issuance of the Guide. e MS nas reviewed and
         apfJroved the use of an alternate methodology. The alternate melhodology eMS
         has approved else'Nllere involves the use of an 85% sample response I"8le,
         below which all non-responses musl be coded as non-Medicaid . and above
         whi:::h non·responses may be discarded. Th is. alternate methodology must
         include sanGtions for rlan·compliant time study participanis.                     II has b:::er.
         ClpproveCi ior lise by eMS in a number oi plans in recent years. Please describe
         ttlE'. non-respons8 prottocol in thb" Implementa lion plan . CIIl1S carl provide ar,
         example Trom an approvad plan upon req uest.

  .. 	   Th~ 5Iat<', fI<'leos tv suomi! im CIII1S revielol ar,d ;,pprov<ll ihf.o tlITiS "tll(i~· Toml':;
         th O): panl :; I:)01m ~ wil, uiiliz~ t: ~om DI 9i~ th;; tifT!€, stud::, ,H. weI! :::s InoS r:~ilflln ;
         malen<;i;, b r sch:Jol dislrl.::l !,:
                                                                                                                   Page 15 of23


Pagp. :3 - Ian M r; Caslin. '-.tiD, MPH


    6. 	 eMS requires the time study moments or week 10 be announced to the staff no
         soon er than 5 business days prior to Ihe start 01 the lime study and Ihal lhe time
         study be closed no more than 5 business days after the moment occurs . This is
         necessary to ensure there is no potential fo r the introduction oi bias . Please
         re vi se Ihe plan accordingly.

    7. 	 Please describe the Staie's oversight and monitoring protocol In detail. Even if
         the school districts will be ff!sponsible lor conducting their own time studies , Ihe
         State relains overall responsibilit y for the accuracy and allowabihty of the
         resuliing claims.

Comments/questions/con cern s re lated                       to    thl:    pro p os~d         modifications           to
Missou ri's SDAC claiming manual:

Secil.m 2,3 (r9 3): ref'3renCE< is made tnai se rv l(;~ ~ ar€. ~vaila nie lor MO H e.::;lIhr.Jet
participants . Should this bf: 'Title )~rY: e l i g ibi ~ parilcipants"?

5o&:::llon 3 - EPS DT pg " -        same: question <I i> clO ove - T itle XD: eligible pHrilGipanls?

S ~ct ion 4 - AdrnlniSlrallv~ C lairrurlg. fig 2 · ~:'" pi:l,agrapll and tht". lormula d ~,s cll iJt io n 01
th E: bottom oi tn!? page - saflle i::;sUE< - . Sh(llltd thai be: 'Tilie
                                                                      ;~W eli9ihlc·


5&cllon 5.2 - several rejerefl ;::e~         I~   "MCi Healtnl'lsi eJigifJifil,· -   5 ':lIr ,e   queSlIon .- shouid
Ihay be "Tille XIX eligiJJility?

s.~, i.., (1) - It appears (here anc throtlgh ow InE: revised m anual ; l h81 tn!:' c urff::ntl:'
approved "staie wid..," rnetnoaology anti RMS IE bemg removed, If that is. correct - 8ac:h
sd 100l disirict is responsible ior it!; own lime distribution methodnbgy. \f\/h e ther are
RIv1S or a 100% lime recording system t ~ used, the school distrlc\ is now respomiible for
ensuring the validity and accuracy of the rnelho d. If based 011 individual school district ,
distributing costs based o n statewidtl RMS rE'!!'ul ts IS no longer acceptable.

5.3 A (2) - Time Study .. pg 9 : "..lI,1I school district emplo)'ees .. . will participate in ;;
random lTIoment sample .. ." If sampled at a school district [-!lvel. flow will thtl statistica l
validi ty be guaranleed? Wi ll there be sufficient staff Included io ensur€ a sufficient
number of moments will be available during the period?

5.3 A describes SDAC and 5.3 8 describes AC M - Do scr.'Jo ls                          ~lavE      the opti o n (If Ofl-E<
over tn!;; o llle( )

5.3 C SDL.C and A C il/; - P9 1::" - I tiE< pa;c'fFaprl at tr.~ KIf- of In€. pag ~ in Cl u(I ~S fh~
senienc€ : "To IdSOIiify Ine GQs! of prell/ialn;; I n-3:;~ serl'IC8S , G random nlClfHen:: t FHe slua y
oi <;\afi will b", ::on d u ~:ae o" Th t £. :~ n:J; ::oflsis\-s-n t witi"', til'- las; pare>9rCl.rw, on nag-8 '!-;
olscussln3 trl:: Tim!: 3 m:J: lOr A':: W, Ina, tn dc(Jt<:;=. , "C:JOIl1nIlOUS 1 (I~l~, w ill 0<,. the mail'lod
eli raporttn, tim!;; and efia,..,' L.r at!<)rr;aliv" w :lr::itn ;: :::;uir., t..t~. "-;- 8 i0811iir) tr •.:" (:OS: :1:
                                                                                                                                Page 16 of23


Page.:1 - Ian McCaslin, MD, MPH


providing these services, either a random moment time study of sl aft or a c ontinllOLJ5
log, whichever is appropriate , win be conducted "

Time eClde Descriptions - The word "Medicaid" has been rep laced with "MO HealthNet"
- Is tha t acceptable?

Section 5.4 Slep#4 - Time Study Methodology - beginning on pg . 24

language tha t is dele ted is relatt:!d \0 the statewide RMS. It is presumed thai Ihis is
becaus& the Stale no longer has a con tract with the consultant thai had bf:l8n
developmg the RMS moments, distribut ing to the schools, and administerin~1 the cost
pool and submitting Ihe clClirns on behalf of the school disiriclS. The G IG has an audit in
prQgres~ thai reviews the SOAC in Missouri. Pr~lirnina ry findirlg s IndiGate pronlElrns
witn the 1:Ipplicatlon 01 th ~ RMS. SpElcific~l!y. U·le Siale IS discarding non-responses in
tl1£ HMS. According te. the 2003 eMS guidance, nOf\-r~sponse$ should Df] Ireated as
~ non-Medicaid" ior purpos!,!s of the RMS .


AI " minimum, we rleed to obtai n the details oi the meitlOci01ogy iron-,                                               U"IE:   Staie
reg<:lrding the number of moments In thE: sample ; arE: they :lVers<:Impling; hoVl' <:Ire non..
r~SDOnsef.., 1real",d, is each d!stri{;\ re;; p~nsible itlr the selecting th'" ran don' rnamenrs"
aD IhEl)' ellminatB time flo l schedu led ic worl ". from the urn"8ise oi lTIorTI:mrs; -:1\<; .

VVa snoUid also Irlquire and gal1"l 2ssurarlc" tnal the Rt.AS r8 $ull!. "He, onl)" applied Te.
,:;ach :"espE.:.:.tivi'; SChODI district·s C(lsl pool. In other words , sirl{:e tney ar€. nc, longe!"
usmg .. staio::!V'Jid<; RtvlS. il is m.. Ionge! a:::.::eptabl!! 10 p:)o! It"Ie RM S r~)su lt~ ami apply 1M
s afrl~ re~; ut!~ io 311 of the COSI pOO!s lor all of tile s::hoal!. . W8 shoul:! a!:.:) inquin. wnat
lri f:: Slate ,I.o..genc)' will be doing Ie en3ur-::: Ih.:!1 validit y of each di::>lricls RM 2 and tfial thE:'
cost pools are developed appropriately

5.4 A (3) - page 26 - the second paragraph says lhat a random momenl sampling
system provides "absolute" assurance Ihat costs asso::::iaied with Doth direct services
and <lcimUl istrativ€ services are captured as discrete cost pools . Is that "orrect. 01 IS it
. reasonable" assu rance?

Same section, in the paragraph that beg ins wi th ''The pool group ... ." the term
"contracted slaif' is used.. This lelm should be defined beUer. Do they mean
employees or do Ihey mean non-employees? In schools, typically lhe certif ied staff,
$u:;n as , teachers, Inerapists. and administrators aie all under contrac! io~ th e schoo!
~'ear and are considered employees of the districl.


5" A(i        I -     Dati:; i:lccumulation , Maintenance and V·a iidalklf1 . n lis i~ wilerI':! t he Stat€
snQulo       des~ribi;:     the cjalaiis of the methodology - sample si:!.", Dversamphng technjque~
sic..

:A ~ 1 3, - p agE' 36 : I: ap~aar~ Iherl': my tJe S,",ITI~· wl(;0ns~s i<;:n::! h In~ l .....( pa;" O:fl :· 3pn~
:J: ,   P3 ;J ~ ~j£     Tm. fi r.:: .   p 3~c.g;ap n .3a ~~   Ina: if   ~   t iITI£ sI:.Jd , 10;' 5:1:.W;   fl ~   t,ill <lb l:: hrll:o
                                                                                                         Page 17 of23


Page 5 - Ian McCaslin, Mo , MPH


then it must be counted as part of the average. The second paragraph says that if all
logs in a quarter for a cost pool member show no billable time. then that person is
rem oved from the cost pool. Which is correct - leave them in or lake them out?

5.5 Step#5 - Prepare a Claim for Payment

5.5A(1) page 39 -the first parag raph indicates that staff costs can not be included in
the unrestricted indirect cost allocation and in the sampling proG€ss: thai staff paid
totally from l ederal (presuming othe r tharl Medicaid ) sources can not be inclu d ed in the
cost pool and that persons whose costs are paid with a combina tion of federal and
general iunds ca n be included but must have the associated costs adjusted according ly .
This appears to be good instructions. but how noes the State monitor and assure that
the schools CoIr€: doing Hlis appropriately?

TnE:- second paragraph In the seciion alsu uses the tE:!rm '·contracted employees." As,
uiscu~sed eadier - this should be defined. Also ir, Ihis par.;!graph . other costs to be
reported included nor,-sampled supervlsvl)· and c lerical stati. is thiS m conflict with tm.:
directions that all staff 5hClUId he Included in thE: F:lvlS?

~.5   L,13 j IvlG Heallll l-.Jfl t Percentag e Rate iar School Dlstncts - page 40.

Thf. sP',,:Jnd paragrapl , Indicates tnal thc school d:stnCls· student data files w ill o=­
matCl10Ci Will, thE:- .l UI), - Septembel ehgitl ilil.!' tll b . How w ill eiigitJililY andlor scl"lo:l:
a r,rollm€:rlt chang:::s that ,Jccur thr::>ugliout the year be n(lndl",d? What is Ihe frequency
w ilt-. wh ier, th:; Medicaid ei I9 ibijjt~' r3it. will (Ii;: calcu:3ied?

Section 5.5 .4.(7; - Certiiication oi I"'aien This caption i£ nm correc t: it s nould b~
C'; Briiflcailnn of E:~pend i!ures . Th::: school dis[iict Sh(Juld also provide a ceriifi::ation with
<lacn i nvojc~ Ihai the expendii ures are supported in the school disiric!'s accountIng
sys tem and al e l olal computable expenditures that meet federa l matching requirements.
The schoo l district is tertiiying 100% of expenditures , not just the matching amount.

The sam€ Issues identified t or Section 5.5 A are also applicablE: to Section 5.5 B. Also.
the last sentence on page 46 before the neading tor 5.6 says tha t invoices Ihat refl ect
inSlJfficient samp lings will be rejected ior payment. What criteria will the State use to
determine if the sam plings are insufficient and will these standards also apply to the
SDAC in addition 10 ACM?

Section 5.6 Slep #0 Program Monitoring

Sc:ctior. 5.t. L,(i I Ac tivities - ThiS section describes wh al the StalE: will be ao ing , OUi il
does, not I"j icate w hat action th;;, State will tak" if there are e rlors found or if srandard ~
Clre 11m ITI:::, Tns ia s! bull:::; sa ~':. tha t twic;;, a ye ar, hAi-j[, "",ill review th= PPR oat3 ior c
sel~ct 1'l-, samolc of cilsrnc!~ panlclpaim;J ounn;; tn~ prior qU3rier                      Wn 31 w ill M H[ ,
estahiisr lnr-:,ugr. ttl!.;: r9vi~p"J:
                                                                                                           Page 18 of23


Page 6 - Ian McCaslin , MD, MPH


Attachment A - Cooperative Agreemenl- School District responsibilities

#9 Provide to DSS/MHD the information :i€cessary 10 request federa l funds available
under the state MO HealthNel match ra tes. This should read - the Slale's Medicaid
match rate .

#11 Certify 10 DSS the provisions of the non-federal share for SDAC via completion of
MHD "Certification of General Revenue ~ form. This should be a certification of tolal
expenditures , not just the non-federal share.

#16 There is a sentence that rElads . "The dale 01 service is considered the first day of
the calendar quaner immediately following the quarter in whIch the e:.:penditure was
made," For adm inistrativE; claims , this will flO! be an Issue beca use the federal
regulations albw a state lW0 ~ears 10 file <I claim, fili i the iime period lJegins in th e.
quaner in wnich the expendilUre was madE, or 'tIher, recorded In the Clt.:::(llinl ing system
However. tms eouid caus~ a problem for direct serVices, beCiJIlS9 the dal e of sarVice
should bE: the dal e thai the service was provided , not the iirsi day of Ihe following
quarter.

~tta::hrnen \   8 - Cooperative Agl'eemerll

Under Scn;;:l! Disiric!   agre~s    10 '



115 ThE. ceniilcauon   nee'J~ tC,   IJe tOlal ':ll:pen:::lll!.lrin. noi   Ih ~ fI(lp-;:ade~3 i   snare .

AtlaclHllent C Sample ACiVl Mettlodoiog)'

Seclior, IV Time Study Procedures.

in paragraph 8 Cost Panl GrOllp, it indlcate5 the Disirl::l should dascrme - if contracted
personnel will participate. Th~, entire document shOUld USf: conSlsl ent iermlnology.
This is thf:lthlrd different term . Are they taUang about employee~ under COntract or non­
employees under contract ?

Section VI Reimbursement ProcE:!ss:

C. Ceriificatinn of Match . This section title IS Incorrect; it should raad Gari ificall:)n of
Expendilures. The certification s!aiemem snouid Incilld!:: language that ifldicales ttJal
the expenditures are dOCUITIf::!rllaC in ihE- $chool dlsinc:t <. accounting system, thai 111&
!<ypenditures being billl:<d are eligibls tor reimbursement under Tille )~! j..: and In€:; district
h~s expended the non·f!::deral shar~ oi ttJf: s)(penjitures from p~imissihle s:)urces
                                                                                      Page 19 of23


Page 7 - la!l McCaslin, MD, MPH


The language in the certification is not correct. The school distrid needs to certify Ihe
expenditure of the tolal amount eligible under Tit le XIX, not that the y have a dequate
non-fede.al funds available. The annual certifica tion is alsa inadequate: the statement
should accompany each invoice .

Attachment I: SDAC Claiming Certification

Same comments as above for Attacnmenl G.

If you have any question concerning this leller, please contact Narinder Singh, of my
staff, at (816) 426-5925.

                                         SincerelY,



                                       ~1J(3
                                     (~soClaie
                                        .iCl5J_S'3='
                                                  Regional AdministratDr
                                        Tor Medicaid and Ch ildre n ' ~, Health Operaiion"
                                                                                            Page 20 of23




OEPARTMENT OF HEALnt &. HUMAN SERVICES
Centers for Medicare &. McdiC1lid SmvlC8s
601 East 12'" Slree!, Sl>,le 235
Kans«s C ity , Mlssol.Jfi 64106

Div is io n o f Medicaid and Children's Health Operations
                                           March 23, 2009


Ian McCaslin, MD , MPH, Director
MO Health Net Division
Department of Social Services
Broadway State Office Building
P.O. Box 6500
Jefferson City, Missouri 65102·6500

DearDr.~Y
We have reviewed the responses submitted on January 15. 2009 by the Missouri
Department of Social Services to our questions dated December 3, 2008 for the MO
HealthNet School District Administrative C laiming (SDAC) program, proposed effective
dale July 1, 2008.

Plea58 respond to our additional questions/comments listed below. eMS may have
additional comments and/or questions on the proposed revisions to the MO HeallhNel
School District Administrative Claiming program after implementation and/or application
of changes to the program .

    CMS Additional Questions/Comme nts on Missouri '!; SDAC Guide

     1. 	 The State needs to submit the revised SDAC implementation plan that
          incorporates the State's responses to CMS ' previous set of comments (dClled
          0 1115/09) and the guidance provided to Missouri below.

    2. 	 The State confirm ed that the time stlJdy is not conducted on a statewide basis,
         but rather by individual school district. What assurances are there that the
         number of sampled moments in each district is sufficient to produce stati stically
         valid resul ts? Also, eMS is approving one methodology for use by the Slate with
         each school district following the same sampling methodology. Therefore , why
         does each district submit ils own methodology to the State for conducting [tie
         time study?      There should only be one methodology that"s adopted                uy
         participating school districts to conduct their own time studies. Please provide
         some sample data from the school districts to asswe statistical validi ty as
         described in your response to question #1

    3. 	 In response to question #2, the State dflscrillsd the lime logs for the two
         remaining school district.s in the Stale still participating in the Adminislratlv6 Case
                                                                                            Page 21 of23



Page 2 -- Ian McCaslin, MD, MPH


      Management (ACM) program as "continuous". Does that mean the time logs
      represent 100% lime and effort reporting? Please also provide the estimated
      number staff in each of these districts who would be participating in the lime
      studies using time logs so that we can determine the number of weeks per
      (Iuarter required for such study to be statistically valid

   4. 	 Please provide a sample of the training materia ls and the time study forms and
        instructions to implement the time study from the State used by each school
        distnct.

   5. 	 The Stale's response to question #4 is that the State will simply discard all non­
        responses. All non-responses must either be coded as non-Medicaid or there
        should be an alternate protocol for the treatment of non-responses approved by
        eMS. The Stale requested an example of an acceptable non-response protocol.
        Please see below.

          a 	 The Slate w ill require a state-wide response rate for the time study survey
              of at least 85%. If the 85% response rate is not met, an non-returned
              moments will be induded and coded as non-Medicaid timB. If the 85%
              compliance rate is reached without having to code to non -Medicaid lime ,
              then non-returned moments will be ignored since they are compensated
              by the 15% over sampling of the sample size.

   6. 	 The response to question #23, please provide additional information orl these
      in(livicluals in the differing school districts. Please clarify why these "contracted"
      5talf may be participating in time studies .

   7 . 	 The references to absolute and reasonable reassurances regarding the cost
         pools should be removed. Instead . please provide assurances that the cost
         pools are mutually exclusive. Additiona l information is requested on each of the
         cost pools.

   8 . 	 The State's response to Question #22 indicates it will sample 1% of participating
      schools for the cost pool data and review the roslers for discrepancies in the cost
      pools. Is this sampling in addition to the 10% validation? What discrepancies is
      tile State looking for? Also, the response to Question #27 refers to a , "/.. sample
      of districts. Is this the same 1 % review referred 10 in the State's response to
      Queslion #22? CMS is looking for a description of the Stale oversight and
      monitoring to be provided by the State in the school district implementation of
      SOAC.

   9 . 	 In the State's response to Question #21 , you indicate that if any participant in the
         ACM program has a log with no billable time lor thaI month, that log is thrown
         oul. Again , it is not acceptable for the State \0 disrElgard responses. in eith er the
         worker tog or random moment time studies. As stated above in Comment #5, the
                                                                                    Page 22 of23



Page 3 - Ian McCaslin, MO, MPH


       Stale should code all worker logs with no billable lime as non· Medicaid, or
       develop an alternate protocol.

If you have any question concerning this letter, please contact Narinder Singh , of my
staff, al (816) 426-5925.

                                       Sincerely,


                                          /~~­
                                      (:::e,
                                       ·.~Ociale Scoll
                                              G.
                                                  Regional Administrator
                                       fo r Medicaid and Children's Healttl Operations



Bee: 	 Leticia Barraza
       Narinder Singh
       Deborah Read
       Tina Gray
       Dee Mizell
       Jim Burns
                                                                                                                                                                                     Page 23 of23


                                                                                                                                                                                Atl<lchmenl E




--.
_0-.. _
....... ,.""'.... c_,... _ ..'
                  "...
                                                            Mi$so" . 1 School Olstrl.. l Admin""•• i.G CI. iml"1! IMoic<>



                                                                      .-         ..""          f •..,.                       ,­

                                                                                                                                                         .-'- _
                                                                             ,~_"                 ',I:U"        '''.''''          " 021.><>3 10



                                                                                ,...- ..... ,....
....... ,. ........ 

                                                                      "'-"""'" -.
                                                                                                                                                              -'- .. -" ­
                                                                                                                                                                    ", ._"
                                                                                                                                                                                      ~



          "
          /."
          ,.
                                    ---
                                    .... ..-... -.....-
                                    ..
                                    r_..,...,..."......"._
                                    , ,....-...­
                                    ""'-,... .--"-,
                                                                              "
                                                                                       ",
                                                                                       "
                                                                                    117 3
                                                                                                  ,"
                                                                                                                   "
                                                                                                                  "n,
                                                                                                                             ~ , ,, ' ,'"
                                                                                                                                             0..




                                                                                                                                            ,,-..
                                                                                                                                             ' .onl
                                                                                                                                             O ~

                                                                                                                                             u n<
                                                                                                                                                              ,. ',..11""
                                                                                                                                                                             U>% A"
                                                                                                                                                                             0...... U
                                                                                                                                                                             ".>'4 ....



           .. ,. _................. -
                                                                                                                                                                            "-Wll u


          ,.
                                    "'"""",<. ......
                                    "~"'"


                                    .....,-..,
                                                   ,,...,                            '"•
                                                                                      ",,
                                                                                                                       '"
                                                                                                                        "                   ..
                                                                                                                                            ,. ""
                                                                                                                                               ,'"
                                                                                                                                                   ~
                                                                                                                                                               ", ••
                                                                                                                                                                       "•
                                                                                                                                                                            . . ...... U

                                                                                                                                                                             ...n. "
                                                                                                                                                                             U"',,' 


                                                                                                                                               -
                                                                                                                                             O~                0             0_ .


          ".. .--...,
          ••
                . . . .-.<---       -...~_ , t ,_




                                                                                       ..                              ..•                   O.'l"4

                                                                                                                                                              .."• ..
           .. ... ...._....,..,
                                                                                                                                                                             O" l'o "'
                                                                                                                                                                       •     "'''' U

          I.                        _ _-<>0..-...           -~-..
                                                            ... _
                                                                                      "                                ..
                                                                                                                                             U >'"
                                                                                                                                             .I..' '''                 •     ,_w< ,.,

          ...,"                            :-_-
                                           _. .......
                                    ........, - ..",'"-
                                    ........
                                    ...._' . .
                                    - -. ~~
                                                  ....,
                                                             ,
                                                                                      ",
                                                                                     ...'"."             .,
                                                                                                                       ,,,
                                                                                                                       ...
                                                                                                                                             ,,~




                                                                                                                                            ,.....
                                                                                                                                             .."    ..         0

                                                                                                                                                              "•      ..•• ....... ..
                                                                                                                                                                        •
                                                                                                                                                                             '.'f!' u ,

                                                                                                                                                                             U,,,U

                                                                                                                                                                            'o._'"

                                                                                                                                                                             O.oD"    ~.
                                                                                                                                             0...'.            °
                                                                                    , ,to.                        I.' "                     m •.
                                                                                                                                                              ..'    ". ".......

         ' '''''''''
         C     ,;y;c-.... ~...      -            ;--.-                ,,-"
                                                                      I
                                                                               . .",»1"-,                  I
                                                                                                              "0<,-_




,.
,.
                         '-".
                         ,"
                                                                      ~~;:    . , !-
                                                                                   . . . """. F::'.."
1,011,  ~                       <u"'....   ,.1
1_ ,_                    :.0<1                                               "" ",... 1 " ."".60 I             1....U. j              "",'1." I

....                     .....,.,                                     I ~..:::.:-' l~..:- I~~ 1,01" "'.,.. . ".. 1
"
,."
                         ".
                         0."




                                                                                                                   ,
<0. ... 00..
